<html>
<title> - REVIEW OF DEFICIENCIES AT THE DISTRICT OF COLUMBIA'S YOUTH SERVICES ADMINISTRATION</title>
<body><pre>[Senate Hearing 108-742]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-742

  REVIEW OF DEFICIENCIES AT THE DISTRICT OF COLUMBIA'S YOUTH SERVICES 
                             ADMINISTRATION

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                     MARCH 30, 2004--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               __________


                    U.S. GOVERNMENT PRINTING OFFICE
96-425                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
                    James W. Morhard, Staff Director
                 Lisa Sutherland, Deputy Staff Director
              Terence E. Sauvain, Minority Staff Director
                                 ------                                

                Subcommittee on the District of Columbia

                      MIKE DeWINE, Ohio, Chairman
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
TED STEVENS, Alaska (ex officio)     ROBERT C. BYRD, West Virginia (ex 
                                         officio)
                           Professional Staff

                             Mary Dietrich
                        Kate Eltrich (Minority)


                            C O N T E N T S

                              ----------                              
                                                                   Page

Statement of Austin Anderson, Interim Inspector General, Office 
  of the Inspector General, District of Columbia.................     1
Alvin Wright, Jr., Assistant Inspector General for Inspections, 
  Office of the Inspector General, District of Columbia..........     1
Robert Isom, Deputy Assistant Inspector General for Inspections, 
  Office of the Inspector General, District of Columbia..........     1
Lawrence Perry, Director of Planning and Inspections, Office of 
  the Inspector General, District of Columbia....................     1
Opening Statement of Senator Mike DeWine.........................     1
    Prepared Statement...........................................     3
Prepared Statement of Senator Mary L. Landrieu...................     4
Prepared Statement of Senator Paul Strauss.......................     5
Prepared Statement of Representative Benjamin L. Cardin..........     6
    Letter From..................................................     7
Statement of Austin Anderson.....................................     8
    Prepared Statement...........................................    10
Management and Internal Control Issues...........................    11
Security Problems................................................    11
Drugs and Substance Abuse........................................    11
Safety and Health Issues.........................................    12
Information Technology Issues....................................    12
Principal Recommendations........................................    12
Statement of Judge Eugene N. Hamilton, Chair, Mayor's Blue Ribbon 
  Commission on Youth Safety and Juvenile Justice Reform.........    17
    Prepared Statement...........................................    18
Statement of Ronald S. Sullivan, Jr., Director, Public Defender 
  Service, District of Columbia..................................    21
    Prepared Statement...........................................    23
Statement of Robert C. Bobb, City Administrator and Deputy Mayor, 
  District of Columbia...........................................    31
Marceline D. Alexander, Interim Administrator, Youth Services 
  Administration.................................................    31
Mark D. Beck, Interim Special Counsel, Youth Services 
  Administration.................................................    31
Prepared Statement of Robert C. Bobb.............................    34
Investigations by the Office of the Inspector General............    37
Receivership.....................................................    39
Statement of Marceline D. Alexander..............................    44

 
  REVIEW OF DEFICIENCIES AT THE DISTRICT OF COLUMBIA'S YOUTH SERVICES 
                             ADMINISTRATION

                              ----------                              


                        TUESDAY, MARCH 30, 2004

                               U.S. Senate,
          Subcommittee on the District of Columbia,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:35 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mike DeWine (chairman) presiding.
    Present: Senators DeWine and Landrieu.
STATEMENT OF AUSTIN ANDERSON, INTERIM INSPECTOR 
            GENERAL, OFFICE OF THE INSPECTOR GENERAL, 
            DISTRICT OF COLUMBIA
ACCOMPANIED BY:
        ALVIN WRIGHT, JR., ASSISTANT INSPECTOR GENERAL FOR INSPECTIONS, 
            OFFICE OF THE INSPECTOR GENERAL, DISTRICT OF COLUMBIA
        ROBERT ISOM, DEPUTY ASSISTANT INSPECTOR GENERAL FOR 
            INSPECTIONS, OFFICE OF THE INSPECTOR GENERAL, DISTRICT OF 
            COLUMBIA
        LAWRENCE PERRY, DIRECTOR OF PLANNING AND INSPECTIONS, OFFICE OF 
            THE INSPECTOR GENERAL, DISTRICT OF COLUMBIA


               opening statement of senator mike de wine


    Senator DeWine. Good morning. The hearing will come to 
order. Today, we will review the District of Columbia's Youth 
Service Administration, the agency charged with overseeing 
committed juvenile offenders, as well as detained juveniles at 
its Oak Hill Juvenile Detention facility in Laurel, Maryland.
    This morning, the interim Inspector General for the 
District will release his comprehensive report on the Youth 
Services Administration's Oak Hill facility. After reviewing an 
embargoed version of this report, I must say that I am shocked 
by what I have seen. I also must say that I am outraged, and I 
think the public will be outraged once they know about this.
    In a moment, we will hear details from our witnesses, but I 
would like to mention some of the more unbelievable details of 
this report, and some of the deficiencies which are outlined 
therein.
    First, the illegal drugs, such as marijuana and PCP are 
regularly--regularly smuggled into the Oak Hill Youth Detention 
Center. In fact, in some cases, youth correction officers are 
the source of these illegal substances.
    Second, substance abuse treatment contractors have refused 
to renew contracts, because Oak Hill is simply unable to stop 
drugs coming into the facilities. This means that sadly there 
are no drug treatment services today at Oak Hill. No services 
in this facility at all.
    No. 3, youths entering Oak Hill, who come in drug free, 
then start taking drugs once they are inside the facilities. 
Let me repeat that. Youths that come into the facilities, into 
this facility, who are drug free coming in, then become drug 
dependent once they go in--once they are in.
    No. 4, the Youth Services Administration has wasted 
millions of dollars, according to this report, on contractors 
who have not provided any meaningful services or deliverables.
    Later, the Director of the Public Defenders Service in the 
District will testify that the Youth Services Administration 
has failed to protect youths from harm. For example, last year, 
a 12-year-old held at Oak Hill as an overnighter, and not 
accused of any crime, was placed in a room with two other 
children. This 12-year-old was sexually assaulted by one of the 
other youths.
    Several months later, a 13-year-old was arrested and held 
at Oak Hill waiting for a shelter house space, simply for a 
shelter house space. The 13-year-old was placed in a room with 
the same child who committed the prior sexual assault. Not 
surprisingly, yet another sexual incident occurred.
    Now, I understand that this practice of assigning more than 
one child to a room has lead to the commingling of status 
offenders, simply children who are runaways or who are truants, 
and placing them together with delinquent youths, as well as 
detained, and youths who have been committed youths.
    These practices, for example, lead to a child detained as a 
truant and a runaway being housed in the same room as a youth 
detained on charges of negligent homicide. Now, that is simply 
not right. It simply is not good for these children.
    Amazingly, these are only the latest in a long list of 
deficiencies with the Youth Services Administration that 
stretch back at least 19 years. Indeed, it was 19 years ago 
this month that the Public Defender's Service filed a complaint 
against the District for failure to protect youth under its 
custody. Year, after year, after year, the City has fallen 
short of the court's Jerry M. decree, and is now facing the 
prospect of being taken over by a court receiver.
    Equally amazing is that it costs $245 per day to house a 
youth at Oak Hill. That amounts to a staggering $89,425 per 
year, $89,425 to place a child in a dangerous setting with 177 
other juvenile offenders, who all have access to illicit drugs, 
and no drug treatment programs. There is something terribly 
wrong with that picture.
    We have worked to enact and fund the District of Columbia 
Family Court Reform Act through this subcommittee. Senator 
Landrieu and I have worked on that. We have worked to develop 
and fund a foster care initiative in the District, because we 
believe it is our moral duty to protect and care for children 
who have been abused and neglected.
    I understand that many children who are in foster care 
group homes run away because they are being victimized by other 
youths in the same home. Once these children run away or are 
truant from school, they become delinquents, and are often sent 
to Oak Hill. So neglected youths who are failed by a broken 
foster care system now find themselves locked up and labeled 
juvenile delinquents. The societal sympathy for these youths 
immediately plummets, because now they are predators rather 
than victims.
    This hearing should shed a disinfecting light on the 
problems with the City's Youth Services Administration. I 
expect to see an urgent and comprehensive plan to correct these 
many deficiencies. We have waited 19 years for improvements, 
and we must not wait another year, and wait for more kids to be 
victimized before something changes.


                          PREPARED STATEMENTS


    Because of the many findings, and the Inspector General's 
report, we are going to allow Mr. Anderson a few more minutes 
to present his testimony. We look forward, Mr. Anderson, to 
that testimony. As usual, the remaining witnesses will be 
limited to 5 minutes for their oral remarks, in order to leave 
time for questions and answers. Copies of all written 
statements will be placed in the record in their entirety.
    [The statements follow:]

               Prepared Statement of Senator Mike DeWine

    Good morning. This hearing will come to order. Today, we will 
review the District of Columbia's Youth Services Administration--the 
agency charged with overseeing committed juvenile offenders, as well as 
detained juveniles at its Oak Hill juvenile detention facility in 
Laurel, Maryland.
    This morning, the Interim Inspector General for the District will 
release his comprehensive report on the Youth Services Administration's 
Oak Hill facility. After reviewing an embargoed version of this report, 
I am shocked and outraged at the conditions at this facility. In a 
moment, we will hear details from our witnesses, but I would like to 
mention some of the more egregious deficiencies:
  --Illegal drugs, such as marijuana and PCP, are regularly smuggled 
        into the Oak Hill Youth Detention Center. In some cases, Youth 
        Correctional Officers are the source of some of the illegal 
        substances;
  --Substance abuse treatment contractors have refused to renew 
        contracts because Oak Hill is unable to stop the influx of 
        drugs. That means there are no drug treatment services at Oak 
        Hill;
  --Youths entering Oak Hill drug-free start taking drugs inside the 
        facility because they have access to drugs; and
  --The Youth Services Administration has wasted millions of dollars on 
        contractors who have not provided any meaningful deliverables.
    Later, the Director of the Public Defender Service in the District 
will testify that the Youth Services Administration has failed to 
protect youths from harm. For example, last year a 12-year-old--held at 
Oak Hill as an overnighter and not accused of any crime--was placed in 
a room with two other children. The 12-year-old was sexually assaulted 
by one of the other youths. Several months later, a 13-year-old was 
arrested and held at Oak Hill waiting for a shelter house space. The 
13-year-old was placed in a room with the same child who committed the 
prior sexual assault. Not surprising, yet another sexual incident 
occurred.
    I understand that this practice of assigning more than one child to 
a room has led to the commingling of status offenders--kids who are 
runaways or truants--and delinquent youth, as well as detained and 
committed youths.
    For example, these practices led to a child detained as a truant 
and a runaway being housed in the same room as a youth detained on 
charges of negligent homicide! Now that just isn't right, and it just 
isn't good for these children.
    Amazingly, these are only the latest in a long list of deficiencies 
with the Youth Services Administration that stretch back at least 19 
years! Indeed, it was 19 years ago this month that the Public Defender 
Service filed a complaint against the District for failure to protect 
youth under its custody. Year after year, the City has fallen short of 
the Court's ``Jerry M. Decree,'' and is now facing the prospect of 
being taken over by a Court receiver.
    Equally amazing is that it costs $245 per day to house a youth at 
Oak Hill--that amounts to a staggering $89,425 per year! $89,425 to 
place a child in a dangerous setting with 177 other juvenile offenders 
who all have access to illicit drugs and no drug treatment programs. 
There's something terribly wrong with that picture.
    I have worked to enact and fund the District of Columbia Family 
Court Reform Act, and I have worked to develop and fund a Foster Care 
Initiative in the District, because I believe it is our moral duty to 
protect and care for children who have been abused and neglected. I 
understand that many children who are in foster care group homes run 
away because they are being victimized by other youths in the same 
home. Once these children run away or are truant from school, they 
become delinquents and are often sent to Oak Hill. So, neglected youths 
who are failed by a broken foster care system, now find themselves 
locked up and labeled juvenile delinquents. The societal sympathy for 
these youths immediately plummets because now they are perpetrators, 
rather than victims.
    This hearing should shed a disinfecting light on the problems with 
the City's Youth Services Administration. I expect to see an urgent and 
comprehensive plan to correct these many deficiencies. We have waited 
19 years for improvements--and we must not wait another year and wait 
for more kids to be victimized before something changes.
    Because of the many findings in the Inspector General's Report, I 
will allow Mr. Andersen 8 minutes to present his testimony. As usual, 
the remaining witnesses will be limited to 5 minutes for their oral 
remarks, in order to leave time for questions and answers. Copies of 
all written statements will be placed in the record in their entirety.
                                 ______
                                 
             Prepared Statement of Senator Mary L. Landrieu

    I appreciate your attendance at this hearing today to explore the 
challenges facing the Youth Services Administration and the juvenile 
justice system in the District. I am happy to see that the Federal 
entities which receive direct oversight and funding from this committee 
are here to share their perspectives and commitment to reform. I would 
also like to welcome the new City Administrator, a fellow Louisianan, 
Robert Bobb, and the interim Inspector General Austin Anderson.
    What the committee knows about the system is gleaned primarily from 
the press, as well as oversight and funding for the D.C. Courts and 
offender supervision agencies which are connected to juvenile justice, 
but not the primary agency responsible for rehabilitation. The 
committee has focused on re-entry of adult offenders and the care of 
children in the abuse and neglect welfare system. Children in crisis 
and offenders struggling to come back to the District are not unrelated 
to the unique struggles of youths in the justice system. I believe the 
committee's previous investigations in this area and Chairman DeWine's 
and my passion for improving the community we live in can contribute to 
the reforms we will discuss today. The mission of YSA is a combination 
of care for child welfare as well as developing solutions to offender 
re-entry into the community. A youth in the criminal justice system is 
sure to spend most of their lives, we hope, outside of prison; 
therefore we must develop the most rigorous best practices to ensure 
youths receive the skills necessary to be positive members of the 
community.
    The committee learned of the broken system of juvenile detention 
from the Washington Post series published this summer which exposed 
many of the security failings at the Oak Hill youth detention center. 
In addition, the written testimony provided to the committee highlights 
other issues facing the agency, particularly the lack of accountability 
in management and operations. However, I am also concerned that the 
source of juvenile escapes from Oak Hill is not only poor security and 
poor conditions. There is little evidence of educational and counseling 
services, nor substance abuse treatment or mental health. The mission 
of Oak Hill is to rehabilitate youth to come back to their community in 
a positive and productive manner. The lack of services contributes to 
the security problem, indicating that youth have nothing to fill their 
time and little or no rehabilitative services are attempted.
    I am interested to hear the justification for YSA rebuilding a 
receiving home at Mt. Olivet Road that may be much larger than 
necessary for what is appropriate for intensive youth services. Larger 
facilities do not work for kids because they are so peer oriented and 
need individual attention. They have not worked for children in foster 
care and they are probably even more inappropriate for juvenile 
offenders where security is paramount. A similar facility was closed in 
1995 due to deteriorated services. I would like to know the best 
reasoning for opening a large receiving home.
    In addition, it appears that the District places youths in group 
homes or incarceration with no consideration for the type of crime, 
needs or social issues facing each individual youth. The city must 
develop alternatives for non-violent children, services in home (wrap-
around services), and ways to address family and social problems rather 
than resort to detention.
    As a life-long advocate for children's rights, education and 
welfare, with Chairman DeWine, I am committed to bringing the best 
practices and resources needed to address some of the challenges in the 
District. I have seen reform in my State of Louisiana develop through 
community commitment and implementation of best practices. I look 
forward to a follow-on hearing which will focus on the next steps 
necessary to implement lasting reform.
    I would like to explore the challenges that face the Youth Services 
Administration, but I would also like to hear from each of you how your 
agency fits into the overall picture and what needs to be done to 
improve the system. Considering the varied challenges to rehabilitating 
youth to re-enter society I would like to ask each of you to discuss 
your vision for the overall ``juvenile justice system'', of which the 
Youth Services Administration, the Public Defender Service, and the 
Courts are just three pieces. I appreciate your attendance today and I 
hope we are able to work together in collaboration to develop and 
implement meaningful reform.
                                 ______
                                 
               Prepared Statement of Senator Paul Strauss

    Chairman DeWine, Ranking Member Landrieu, and others on this 
subcommittee, as the elected United States Senator for the District of 
Columbia, I thank you for your interest in the District of Columbia's 
Youth Services Administration. I regret that I can not be here in 
person this morning, but I appreciate the opportunity to submit this 
statement on behalf of my constituents.
    Long before the citizens of the District of Columbia elected me to 
serve as their United States Senator, my very first job in the District 
of Columbia government was with the Youth Services Administration under 
the Department of Human Services. Shortly after the entry of the 
consent decree, I served as a court liaison officer charged with the 
responsibility of representing the YSA dispositional position in 
juvenile hearings. Later on, when I became an attorney, I had the 
opportunity to represented clients under the jurisdiction of YSA. I 
have continued to follow developments within the agency, and have found 
myself frequently dismayed but on occasions, pleasantly surprised with 
the progress.
    Senators, this subcommittee has worked hard to promote the best 
interests of children in the District of Columbia. Your efforts to 
fully fund initiatives relevant to the D.C. Family Court, and provide 
extra resources to those who serve our troubled youth have been 
commendable, and appreciated by those of us who follow these issues 
closely. If it is the intention of this subcommittee to use this 
hearing for the purposes of identifying areas where greater Federal 
resources should be appropriated, then I applaud your willingness to 
provide support to an agency which everyone agrees has more than it's 
fair share of problems. If however, the committee intends to turn back 
the home-rule clock, or violate the important Constitutional doctrine 
of the separation of powers by attempting to influence the pending 
judicial proceedings, I urge you to reconsider your involvement.
    Based on my many prior statements presented before this committee, 
it should come as no surprise that I have been, and continue to be an 
advocate of the District of Columbia's full Statehood, and as a 
consequence frequently oppose any Federal intervention into the local 
affairs of my community. To put it simply, the executive witness who 
you heard from today, were appointed by, and are accountable to a 
Mayor, elected by and for the citizens of the District of Columbia. 
Regardless of who was appearing before you today, my support for the 
efforts of the Home-Rule government would likely my anticipated 
position. In this case my support is of a more personal nature.
    I would like to go on record as strongly supporting the leadership 
of the present YSA administrators. For those of us who truly know the 
players, the selection of Marceline Alexander, and Mark Back are truly 
inspired and exceptional choices. I have personally had the privilege 
of working with both of them for over a decade in various capacities. 
As a lawyer, I have had the chance to litigate with and against, each 
of them. They are exceptional attorneys of the highest ethical 
character. Together they combine the vigor of new creative energy with 
significant and varied experience in District government.
    In his fiscal year 2005 budget, the Mayor has proposed a 
significant increase in funding, in order to hire additional FTE's in 
the Youth Services Administration, and to conform to Jerry M. 
organizational improvements standards. It is essential for the 
operations of YSA to not be disrupted, and for the U.S. Senate not to 
interfere with Ms. Alexander's reform efforts. It is also imperative 
that this subcommittee provides additional Federal resources to the 
District agencies that need them.
    I am also encouraged by the frankness exhibited by our new City 
Administrator, Robert Bobb. No one in this government is denying that 
the Youth Services Administration has had significant problems over the 
years. In his testimony, here today, and in court, Mr. Bobb 
acknowledges frankly, the issues documented by the Office of Inspector 
General that hinder the operations of the Oak Hill Youth Center. I am 
impressed however that progress is rapidly being made regarding the 
critical concerns regarding fire safety, security and illegal drug use. 
Without in any way minimizing the problems associated with this agency, 
this new team gives me real hope that significant improvements are 
really underway this time. Ms. Alexander and Mr. Beck are taking 
concrete steps to see that each deficiency identified by the Office of 
the Inspector General is being appropriately addressed.
    The Youth Services Administration provides a critical and necessary 
function to the residents of the District of Columbia. Their 
fundamental role is to transform troubled, misguided, and delinquent 
youth into constructive and productive members of society through a 
process of rehabilitation, personal growth, and self-actualization. The 
staff at the YSA requires every available resource to undertake this 
challenging task. While every case may not be successful, what positive 
impacts that the agency has had on reforming youth offenders have been 
profound. Although deficiencies are often more recognizable than 
strengths, YSA has had many success stories. It is clear that there is 
a lot of work to be done and many improvements to be made. I am of 
course, deeply concerned about the current litigation that is in 
progress. While I respect the sincerity and intentions of the 
Plaintiff's advocates, I hope that the legal outcome does not undermine 
the work of reforming YSA. However, I am confident that with the 
leadership of Ms. Alexander and the assistance of Mr. Back, this agency 
will be soon make substantial progress and begin to better serve the 
troubled children of our city.
    In conclusion, I would like to thank the subcommittee for holding 
this important hearing. I ask that you approve the budget proposals 
submitted today. I commend Senators DeWine and Landrieu for their 
continued interest in the fate of our Nation's Capital. Their valuable 
support has sustained the functioning of our vital institutions. 
Finally, I would like to thank two members of my legislative staff, 
Regina Szymanska and Brian Rauer, for their help in preparing this 
statement. I look forward to further hearings on this topic, and I'm 
happy to respond to any requests for additional information this 
subcommittee may have.
                                 ______
                                 
        Prepared Statement of Representative Benjamin L. Cardin

    Mr. Chairman, I rise to bring to the attention of the House an 
issue that has not received much focus in previous Congresses, but that 
has recently come into the national spotlight.
    In my Congressional District--the Third District of Maryland--I 
represent 110 District of Columbia residents. They live at the Oak Hill 
detention center, a maximum security campus in Laurel, Maryland, 
approximately 30 miles from Washington.
    Located on more than 600 acres of Federal land adjacent to the 
National Security Agency, the facility was originally constructed 50 
years ago. Few renovations have been made since then, and the campus is 
now in a severe state of neglect and disrepair, littered with 
partially-boarded abandoned buildings that are frequently broken into 
and set afire.
    Roughly half the children at Oak Hill have been convicted of crimes 
and sentenced to a term there, the other half are detainees awaiting 
trial. Their average length of stay is slightly more than 8 months.
    For years, Oak Hill has been a source of controversy in Maryland. 
The facility has been the subject of more than 60 judicial orders, 
millions of dollars in fines, and several dozen monitoring reports.
    A 2001 mayoral commission recommended closing Oak Hill and placing 
youth offenders in a network of residential treatment facilities, 
community-based group homes and other less restrictive settings. I 
support the Commission's recommendations, including the closing of Oak 
Hill. Some progress has been made toward that goal, including beginning 
construction of a pre-trial holding facility in Northeast Washington 
that should reduce by 50 percent the number of children housed at Oak 
Hill.
    July's four-part series in The Washington Post documented a near-
complete breakdown of the community-based rehabilitative care system 
that now exists for the District's youth offenders. The District needs 
to develop an appropriate community-based system for its juvenile 
offenders.
    In addition, because the District of Columbia has only one 
residential treatment center, which is plagued by alleged physical and 
sexual abuse, the city must send many children in need of lengthy 
treatment out of State. Currently, 400 District children are in 
residential treatment centers--some as far away as Arizona--at a 
conservative cost estimate of $25 million a year. District government 
officials say they don't know whether this approach is effective, 
because the city has failed to keep track of these children after they 
return to Washington.
    Mayor Anthony Williams recently acknowledged that his juvenile 
justice system is in a state of ``serious dysfunction,'' and he has 
pledged to take corrective action. But he was also quoted as saying, 
``There hasn't been an embrace, at the agency level, of the issue. 
There hasn't been the sense of urgency.''
    I would tell the Mayor that a sense of urgency has existed for some 
time both in the District of Columbia and in my district in Maryland.
    I recently had the opportunity to meet with my colleague, Mrs. 
Norton, and Deputy Mayor Carolyn Graham, and I subsequently visited Oak 
Hill.
    There I met with Youth Services Administrator Gayle Turner and her 
staff, and I toured the facility and surrounding grounds. I was 
impressed with both administrators, their openness and candor, and 
their willingness to discuss problems facing the District's juvenile 
justice system, and possible remedies.
    As a result of our initial discussions, we were moving in the right 
direction:
  --toward razing the dilapidated structures that are beyond 
        rehabilitation;
  --and toward developing proposals to make more cost-effective and 
        more appropriate use of the land.
    That is why I am disappointed that both of these administrators 
have been terminated from their positions in Mayor Williams' 
administration. Ms. Graham resigned in June, and Ms. Turner was ousted 
on July 22. It appears that they have become scapegoats for the 
failures of an underfunded system that has been in turmoil for decades.
    Today's debate is about funding for the District of Columbia. But 
this issue involves more than the appropriate funding levels; this is 
about the best course of treatment for these children, the best way to 
ensure the safety of our communities, and the most appropriate use of 
Federal land.
    Mr. Chairman, as the representative of the community surrounding 
Oak Hill, I look forward to working to help improve the state of 
juvenile justice services for the District of Columbia. My colleague in 
the other body, the senior Senator from Ohio, has promised to examine 
the District's Mental Health System, group homes, and related issues in 
September.
    I might also point out that the Federal land on which Oak Hill is 
located is a prime site for expansion of NSA and for the State of 
Maryland and Anne Arundel County to develop environmental, 
recreational, and economic opportunities.
    I hope to continue working with Mrs. Norton, with the members of 
the Subcommittee on the District of Columbia, and with Mayor Williams 
and the City Council, to develop the right solutions for all involved.
                                 ______
                                 
             Letter From Representative Benjamin L. Cardin
                                                    March 31, 2004.
The Honorable Porter Goss,
Chairman, Select Committee on Intelligence, H-405, The Capitol, 
        Washington, DC 20515.

The Honorable Jane Harman,
Ranking Member, Select Committee on Intelligence, H-405, The Capitol, 
        Washington, DC 20515.
    Dear Chairman Goss and Ranking Member Harman: As the Select 
Committee on Intelligence begins to formulate its Authorization Bill, I 
am requesting consideration of the following program for inclusion:
    *Authorization of a one-year study by the National Security Agency 
of the use of federal land currently employed by the District of 
Columbia for Oak Hill, its Juvenile Justice Facility. Oak Hill, the 
District of Columbia's juvenile justice facility, is located on 
approximately 600 acres of federal land within my district's borders, 
directly adjacent to NSA headquarters at Fort George Meade.
    The area that is now used to house approximately 120 detainees 
takes up a very small portion of the acreage. The buildings currently 
in use are in a severe state of disrepair. There has been increasing 
concern among community residents that the lack of appropriate security 
measures for detainees at Oak Hill and the numerous abandoned buildings 
on the federal property, which have been targets of vandalism and 
arson, threaten the safety of citizens in the surrounding area.
    My goal is threefold: more efficient use of the federal property, a 
more modern and secure youth facility for the District of Columbia, and 
access to a large area of land for NSA. NSA supports conversion of a 
portion of the site north of the wetland area--for its use and wishes 
to begin the process by undertaking a study that would include plans 
for a state-of-the-art facility for DC juvenile detainees to replace 
the existing cluster of buildings adjacent to NSA and the smaller 
facility that is being used for female detainees. The District of 
Columbia government is completing construction of a pre-trial detainee 
facility in Northeast Washington, and plans to relocate approximately 
60 juveniles who are awaiting trial to that location in the near 
future. This relocation would reduce the population at Oak Hill to 
approximately 60 residents.
    I appreciate your consideration of this request for your fiscal 
year 2005 bill. I would be pleased to provide more information or 
answer any questions you may have. Please do not hesitate to contact 
me, or Priscilla Ross, my Legislative Director.
            Sincerely,
                                        Benjamin L. Cardin,
                                                Member of Congress.

    Senator DeWine. Mr. Anderson, we look forward to your 
testimony. You may now begin.

                      STATEMENT OF AUSTIN ANDERSON

    Mr. Anderson. Good morning, Chairman DeWine. My name is 
Austin Anderson, and I am the Interim Inspector General for the 
District of Columbia Office of the Inspector General. Joining 
me today are Alvin Wright, Jr., Assistant IG for Inspections, 
Robert Isom, to my left, Deputy Assistant IG for Inspections, 
and Lawrence Perry, to my right, Director of Planning and 
Inspections.
    The Youth Services Administration, or YSA, is one of the 
largest components of the District's Department of Human 
Services. It is charged with developing and administering a 
city-wide service system that empowers youths entrusted to its 
care to become lawful, competent, and productive citizens.
    The Oak Hill Youth Center, operated by YSA, in Laurel, 
Maryland, houses juveniles sent by the courts for both short- 
and long-term detention. Our inspection team found significant 
deficiencies in all key areas of management and operations in 
YSA, and particularly at Oak Hill. I will briefly summarize 
some of the key findings in our report of inspection being 
released today.
    Management and internal control issues. The inspection team 
found many employees who are highly motivated and dedicated to 
carrying out YSA's mission. However, management and leadership 
of YSA have been unstable, because YSA has had difficulty 
retaining its top managers. This has resulted in a chronic lack 
of effective supervision of employees, diminished 
accountability, and insufficient oversight of critical 
operations at all levels.
    There were four different administrators of YSA during the 
period of this inspection. For long periods, other senior 
management positions have either been vacant or filled by 
employees in an interim or acting status. For example, in 
November, 2003, the inspection team counted 16 key positions 
that were vacant.
    Many of the same types of problems that resulted in the 
1986 Jerry M. lawsuit still exist 17 years later. Between 1998 
and 2003, YSA spent approximately $3.6 million on consultants 
in an effort to bring YSA into sustained compliance with the 
Jerry M. decree. However, a number of these projects were not 
properly monitored, and resulted in unauthorized overspending 
and unfulfilled objectives.
    For example, YSA paid a consultant approximately $1.25 
million between 1999 and 2001 to improve the agency's 
information management system; yet, the consultant never 
provided the deliverables specified in the contract. YSA had to 
hire another consultant to do the work desired. Even after 
hiring another consultant, however, YSA's IT system still 
cannot generate basic statistical reports.
    The team also found that documentation and deliverables for 
some contracts could not be accounted for. YSA policies and 
procedures across the board for the provisions of services to 
youth were either out of date or non-existent.
    Security problems. The inspection team documented 
inadequate searches of employees and visitors at security 
checkpoints. This allowed contraband, including illegal drugs, 
to enter the facility. Security equipment, such as metal 
detectors, was present, but not being used. There was weak 
security at the main entrance and the compound perimeter.
    The team did observe subsequent improvement in the security 
guard unit after direct intervention by city administrator, 
Robert Bobb. Mr. Bobb replaced inadequately supervised contract 
security guards with better trained and more closely supervised 
Department of Corrections' employees.
    Other security problems observed by the team included 
inoperative and insufficient electronic monitoring equipment, 
inadequate two-way radios and phones for correctional officers 
in the female unit, an unsecured door at the gatehouse control 
booth, youths not being photographed when remanded to Oak Hill, 
inadequate background checks on employees, who regularly 
interact with youth, and no detailed procedures or trained 
staff to handle escapes.
    Drugs and substance abuse. A number of employees told our 
team that illegal substances, such as marijuana and PCP are 
smuggled into the Oak Hill facility regularly. Youth 
correctional officers employed by YSA are alleged to be a 
primary source of illegal substances used by Oak Hill youths. 
According to some YSA officials, almost 100 percent of youths 
at Oak Hill have substance abuse problems; yet, the inspection 
team noted that Oak Hill has not had a structured substance 
abuse program, as required by the court, since April, 2003.
    Prior to that date, a vendor provided a substance abuse 
treatment program, but reportedly chose not to renew its 
contract, because YSA could not prevent the influx of drugs 
into the Oak Hill facility.
    The team also noted that the Department of Justice has 
funds available to assist YSA with a treatment program; 
however, YSA has not met the requirements necessary to obtain 
such funding.
    We also found significant deficiencies in the drug 
screening program, including a lack of procedures and training 
for collecting urine samples, lack of a chain of custody for 
samples, and poor record keeping.
    Safety and health issues. The inspection team found serious 
fire and other safety deficiencies that put Oak Hill youths at 
unacceptable risks. Missing fire extinguishers. No fire drills. 
No emergency evacuation plan. Manual door locks on residents' 
rooms that could impede escape during a fire or other 
emergency, and insufficient keys available to correctional 
officers to unlock doors during emergencies.
    We found that the culinary unit does not have written 
sanitation policies. Food service personnel are not required to 
undergo annual physical examinations, and some Oak Hill 
facilities do not meet Federal and local codes regarding 
environment, health, and safety standards.
    The team observed possible electrical and fire code 
violations, exposed rusting and leaking pipes, and evidence of 
vermin infestation. In addition, numerous abandoned buildings 
on the Oak Hill compound are unsecured and have been 
vandalized.
    Information technology issues. YSA's key computer database 
is outdated and cannot be maintained by current staff. As 
previously stated, the system cannot generate statistical 
reports. In addition, some YSA departments do not have computer 
access. These problems impair YSA's ability to effectively 
manage day-to-day operations.
    The conditions found at YSA thus far strongly indicate that 
the management and leadership of senior DHS and YSA officials 
have been weak and ineffective. Consequently, the inspection 
team rates YSA a poorly performing component of the District's 
juvenile justice system.
    Our report contains the following principle recommendations 
to the Mayor and the Department of Human Services. Make YSA a 
separate cabinet-level agency reporting directly to the Deputy 
Mayor for Children, Youth, Families, and Elders. This will 
reduce the existing multiple layers of bureaucracy, and could 
make YSA executive positions more attractive to experienced and 
competent administrators willing to stay in place for the long 
term.

                           PREPARED STATEMENT

    Second, fully participate in the U.S. Justice Department's 
performance-based standards system for juvenile facilities. 
This system was developed by the Council of Juvenile 
Correctional Administrators to assist youth facilities, such as 
Oak Hill, and continuously improving the conditions of 
confinement and the services provided.
    This concludes my testimony. I will be happy to respond to 
questions.
    [The statement follows:]

                 Prepared Statement of Austin Andersen

    Good morning Chairman DeWine and members of the Senate 
Appropriations Subcommittee for the District of Columbia. My name is 
Austin Andersen, and I am the Interim Inspector General (IG) for the 
District of Columbia Office of the Inspector General, or OIG. Joining 
me today is Alvin Wright, Jr., Assistant IG for Inspections; Robert 
Isom, Deputy Assistant IG for Inspections; and Lawrence Perry, Director 
of Planning and Inspections.
    YSA is one of the largest components of the District's Department 
of Human Services. It is charged with developing and administering a 
citywide service system that empowers youths entrusted to its care to 
become lawful, competent, and productive citizens. The Oak Hill Youth 
Center operated by YSA in Laurel, Maryland, houses juveniles sent by 
the courts for both short- and long-term detention.
    Our inspection team found significant deficiencies in all key areas 
of management and operations in YSA, and particularly at Oak Hill. I 
will briefly summarize some of the key findings in our report of 
inspection being released today.

                 MANAGEMENT AND INTERNAL CONTROL ISSUES

    The inspection team found many employees who were highly motivated 
and dedicated to carrying out YSA's mission. However, management and 
leadership of YSA has been unstable because YSA has had difficulty 
retaining its top managers. This has resulted in a chronic lack of 
effective supervision of employees, diminished accountability, and 
insufficient oversight of critical operations at all levels. There were 
four different administrators of YSA during the period of this 
inspection. For long periods, other senior management positions have 
been either vacant or filled by employees in an interim or acting 
status. For example, in November 2003, the inspection team counted 16 
key positions that were vacant.
    Many of the same types of problems that resulted in the 1986 Jerry 
M. lawsuit still exist 17 years later. Between 1998 and 2003, YSA spent 
approximately $3.6 million on consultants in an effort to bring YSA 
into sustained compliance with the Jerry M. decree. However, a number 
of these projects were not properly monitored and resulted in 
unauthorized overspending and unfulfilled objectives. For example, YSA 
paid a consultant approximately $1.25 million between 1999 and 2001 to 
improve the agency's information management system, yet the consultant 
never provided the deliverables specified in the contract. YSA had to 
hire another consultant to do the work desired. Even after hiring 
another consultant, however, YSA's IT system still cannot generate 
basic statistical reports. The team also found that documentation and 
deliverables for some contracts could not be accounted for.
    YSA policies and procedures across the board for the provision of 
services to youth were either out of date or nonexistent.

                           SECURITY PROBLEMS

    The inspection team documented inadequate searches of employees and 
visitors at security checkpoints, and this allowed contraband such as 
illegal drugs to enter the facility. Security equipment such as metal 
detectors was present but not being used. There was weak security at 
the main entrance and the compound perimeter. The team did observe 
subsequent improvement in the security guard unit after direct 
intervention by City Administrator Robert Bobb. Mr. Bobb replaced 
inadequately supervised contract security guards with better-trained 
and more closely supervised Department of Corrections employees.
    Other security problems observed by the team included:
  --inoperative and insufficient electronic monitoring equipment;
  --inadequate two-way radios and phones for correctional officers in 
        the female unit;
  --an unsecured door in the gatehouse control booth;
  --youths not being photographed when remanded to Oak Hill;
  --inadequate background checks on employees who regularly interact 
        with youths; and
  --no detailed procedures or trained staff to handle escapes.

                       DRUGS AND SUBSTANCE ABUSE

    A number of employees told our team that illegal substances such as 
marijuana and PCP are smuggled into the Oak Hill facility regularly. 
Youth correctional officers employed by YSA are alleged to be a primary 
source of illegal substances used by Oak Hill youths. According to some 
YSA officials, almost 100 percent of youths at Oak Hill have substance 
abuse problems, yet the inspection team noted that Oak Hill has not had 
a structured substance abuse program as required by the court since 
April 2003. Prior to that date, a vendor provided a substance abuse 
treatment program, but reportedly chose not to renew its contract 
because YSA could not prevent the influx of drugs into the Oak Hill 
facility. The team also noted that the Department of Justice has funds 
available to assist YSA with a treatment program. However, YSA has not 
met the requirements necessary to obtain such funding.
    We also found significant deficiencies in the drug screening 
program, including a lack of procedures and training for collecting 
urine samples, lack of a chain of custody for samples, and poor record 
keeping.

                        SAFETY AND HEALTH ISSUES

    The inspection team found serious fire and other safety 
deficiencies that put Oak Hill youths at unacceptable risk:
  --missing fire extinguishers;
  --no fire drills;
  --no emergency evacuation plan;
  --manual door locks on residents' rooms that could impede escape 
        during a fire or other emergency; and
  --insufficient keys available to correctional officers to unlock 
        doors during emergencies.
    We found that the culinary unit does not have written sanitation 
policies, food service personnel are not required to undergo annual 
physical examinations, and some Oak Hill facilities do not meet Federal 
and local codes regarding environment, health, and safety standards. 
The team observed possible electrical and fire code violations, exposed 
rusting and leaking pipes, and evidence of vermin infestation. In 
addition, numerous abandoned buildings on the Oak Hill compound are 
unsecured and have been vandalized.

                     INFORMATION TECHNOLOGY ISSUES

    YSA's key computer database is outdated and cannot be maintained by 
current staff. As previously stated, the system cannot generate 
statistical reports. In addition, some YSA departments do not have 
computer access. These problems impair YSA's ability to effectively 
manage day-to-day operations.

                               CONCLUSION

    The conditions found at YSA thus far strongly indicate that the 
management and leadership of senior DHS and YSA officials have been 
weak and ineffective. Consequently, the inspection team rates YSA a 
poorly performing component of the District's juvenile justice system.

                       PRINCIPAL RECOMMENDATIONS

    Our report contains the following principal recommendations to the 
Mayor and the Department of Human Services: (1) Make YSA a separate, 
Cabinet-level agency reporting directly to the Deputy Mayor for 
Children, Youth, Families, and Elders. This will reduce the existing 
multiple layers of bureaucracy, and could make YSA executive positions 
more attractive to experienced and competent administrators willing to 
stay in place for the long term; and (2) Fully participate in the U.S. 
Justice Department's performance-based standards system for juvenile 
facilities. This system was developed by the Council of Juvenile 
Correctional Administrators to assist youth facilities such as Oak Hill 
in continuously improving the conditions of confinement and the 
services provided.
    This concludes my testimony, and I will be happy to respond to your 
questions.

    Senator DeWine. Mr. Anderson, thank you very much. I guess 
the first thing that strikes me about your testimony and the 
report is the commingling of status offenders, simple truants, 
kids who just run away from home, and people who have been 
convicted, and people who have been charged with very serious 
offenses. Sex offenses, for example. I find that to be 
shocking.
    That is not permitted, I am not aware that that is 
permitted in any State in the Union. That is not permitted, 
actually, in the District of Columbia, is it? My understanding 
is that there is a District law that prohibits that from taking 
place. Are you aware of that?
    Mr. Anderson. I am aware of the fact that changes are under 
way to separate the two groups of children, but previously 
there had not been facilities to do that.
    Senator DeWine. My understanding is that that is illegal in 
the District of Columbia. That has not been the practice in 
most States for 30 years. When I was county prosecutor in the 
1970's, that was not allowed in my home county in Ohio. I do 
not think that has been the practice for years.
    The Federal Government, in fact, denies funds for States if 
they do that. We sit here in Congress, and we pass judgment on 
the 50 States, and we say we are not going to give you justice 
money if you put a status offender, some kid who is a runaway, 
and you house him with somebody, some kid who has been an 
adjudicated a felon, and you house them together, we are not 
going to give you Federal dollars. Here, the District of 
Columbia is doing the same thing. I find that to be shocking.
    We see the results. Your report has indicated what the 
results are. They are to be expected. A sex offender, who is a 
predator, will prey on some poor kid who is just a runaway. 
That is just shocking, to put a runaway kid, who has got all 
kinds of other problems, but all he is or she is is a runaway, 
and you put him in a cell with a sex offender, what do you 
think is going to happen? It is just unbelievable.
    So to me, that is the first thing that just jumps out from 
this report. It is just absolutely unbelievable, and just 
cannot be permitted to continue.
    Let me move on. The drug testing program you alluded to in 
your oral testimony, they do have a formal drug testing program 
at Oak Hill, is that correct? Mr. Perry?
    Mr. Perry. Yes, they do.
    Senator DeWine. In fact, you all have supplied my office 
with some sample information that you came up with. In fact, we 
were given one example of a youth who came in, was drug free, 
and then later on at Oak Hill, he tested positive for opiates, 
cocaine, marijuana, and PCP.
    Mr. Perry. Correct.
    Senator DeWine. That is pretty unbelievable, is it not?
    Mr. Perry. Yes.
    Senator DeWine. It may not be unbelievable, but it is 
pretty shocking.
    Mr. Perry. Yes.
    Senator DeWine. You come in, you are drug-free. You are 
tested. You are okay. Then you go to Oak Hill, and then you are 
tested positive for cocaine, marijuana, PCP.
    Mr. Perry. Correct.
    Senator DeWine. In your recommendations, you talked about 
the chain of command. What is the chain of command for YSA?
    Mr. Perry. Actually, we could not document the chain of 
command. The youth correctional officers that we spoke to that 
were responsible for collecting the drug samples could only 
take us through an oral chain of command once the drug sample 
was obtained from the youth.
    Senator DeWine. Well, I misled you there. I was talking 
about the drugs, but let us get away from that. I want to look 
at the big picture. Who is responsible for what happens at this 
facility at Oak Hill? Take it from Oak Hill, and then take me 
all the way up.
    Mr. Perry. The Director of the Department of Human Services 
is ultimately responsible for the operations at the Oak Hill 
Youth Center.
    Senator DeWine. Okay. Let us go down, though. Who is 
responsible--who runs Oak Hill?
    Mr. Perry. Let me see, they have an administrator that is 
over Youth Services Administration, and then they have a 
superintendent of Detention Services at the Oak Hill Youth 
Center.
    Senator DeWine. Then where does it go? If you were drawing 
a chart, then where does it go up from there?
    Mr. Perry. Oh. It goes up from there?
    Senator DeWine. Yes. Take me up. Go up.
    Mr. Perry. Okay. Yes. The administrator of Youth Services 
Administration. Then you have the director of Department of 
Human Services. Then you have the Deputy Mayor for Families, 
Elders, and Youth, and ultimately, the Mayor.
    Senator DeWine. Your recommendation, Mr. Anderson, and your 
conclusion was what?
    Mr. Anderson. One of our conclusions is that the Mayor 
consider making a separate agency of YSA in order to avoid the 
intervening layers of bureaucracy, so that the head of YSA 
would be able to report directly to a deputy mayor.
    Senator DeWine. What would be the advantage of this?
    Mr. Anderson. One advantage of it would, hopefully, be that 
a higher profile position would attract more experienced 
professionals to take this position, and to stay in the 
position a longer period of time in order to provide the 
continuity that currently seems to be lacking.
    Senator DeWine. So the turnover is a problem?
    Mr. Anderson. We think that the turnover is one of the 
major problems, because of the lack of supervision and the 
temporary status of some of the managers when they are in 
place.
    Mr. Perry. We also found that just due to the sheer size of 
DHS and the number of administrations under DHS, the level of 
accountability for Youth Services Administration, the top 
leadership at DHS was not able to have a day-to-day interaction 
with the operations at Youth Services Administration. Placing 
YSA as a cabinet-level position would bring more accountability 
to the organization.
    Senator DeWine. Mr. Anderson, have you performed an 
assessment of YSA's group homes? Is there anything that leads 
you to believe that the group homes are in any better shape 
than Oak Hill?
    Mr. Perry. We are currently starting the second portion of 
our report of the inspection of Youth Services Administration. 
The group homes, we are currently doing assessment of those 
facilities. That report should be issued within the next 
several months. We did not include this in this report, due to 
the size of the agency.
    Senator DeWine. Do you want to give us a sneak preview?
    Mr. Perry. I will let Mr. Wright handle that.
    Senator DeWine. All right. Mr. Wright.
    Mr. Wright. Thank you very much. What we are doing right 
now, Senator DeWine, is focusing on the group homes themselves, 
how they are set up, how they are being managed and run, 
particularly the physical structure. We have noted in a 
preliminary fashion that there are some fairly significant 
physical and security problems. We have not completely 
documented those, so I do not want to go into a lot of detail, 
but we have noted that there are some health- and safety-type 
issues that we certainly will be addressing in detail in our 
report.
    These homes are run by independent contractors, for the 
most part. So we have a lot of digging to do to actually 
understand exactly how well they are being run, what the lines 
of accountability are, and that kind of thing. But we are 
hopeful that the problems are not as significant as might be 
expected, but we have seen some physical conditions that we are 
going to take issue with.
    Senator DeWine. Well, is there anything that makes you 
believe these group homes are in any better shape than Oak 
Hill?
    Mr. Wright. It truly is very early to opine on that. I 
really do not want to pre-judge the results of the work of my 
inspectors at this point.
    Senator DeWine. All right. That is fair enough. We will 
look forward to you all coming back----
    Mr. Wright. Okay.
    Senator DeWine [continuing]. And giving us that report.
    Mr. Wright. Yes, sir.
    Senator DeWine. That would be good.
    Mr. Wright. We will be happy to do it.
    Senator DeWine. It has been my experience that any time you 
have a residential operation, it is very expensive. It is 
always a lot more expensive than any of us can imagine, or that 
the public can imagine. But I have looked at enough facilities, 
when I was a lieutenant governor in Ohio. I was involved in 
looking at penal facilities, and youth facilities, and other 
facilities. I have spent enough time, since I have been in 
Congress, looking at these.
    To say that it is $90,000 for a residential, per year, per 
child, for a residential facility, where there are no services, 
or at least no drug services, is a lot of money. It sounds much 
too high for me.
    Now, it is my understanding that there is no drug treatment 
there, is that correct? No drug services. Am I right or wrong 
about that? You are doing testing, but that is not services.
    Mr. Perry. Yes, they are doing testing. During the time of 
our inspection, there was no drug treatment program established 
at Oak Hill Youth Center.
    Senator DeWine. Is there any kind of sex offender program?
    Mr. Perry. Not to our knowledge.
    Senator DeWine. Okay. Is there any other kind of intensive 
type programming that would account for that type of cost? In 
other words, where you usually run into your costs, it costs so 
many dollars just to run a facility, and to house, and feed, 
and take care of people. But where you get your costs are 
psychological services, intense psychological services, sex 
offender type services, drug treatment type services. That is 
where you get your costs. Now, do they have any type of 
services like that, that would be driving these costs up to 
close to $90,000 per person?
    Mr. Perry. I cannot make an assessment on the $90,000. I 
know that the treatment counselors at Youth Services 
Administration do provide individual treatment counseling, 
group team treatment counseling, but as far as intensive 
treatment programs provided by specialists in these fields, we 
do not find that Youth Services Administration had these.
    Senator DeWine. What do they do? What do they provide? Do 
you know?
    Mr. Perry. As far as we could tell there are no intensive 
treatment programs.
    Senator DeWine [continuing]. Programming? In other words, 
if I want to evaluate a residential facility, I will look at it 
and say, ``Here is the programming.'' I will evaluate the 
programming. I will say, ``This is what they do.''
    I mean it is one thing to do an evaluation where you do a 
nuts-and-bolts evaluation, where you say, the fire escapes are 
here, or they are up to fire code. That is all very important. 
But you also look at, another way of looking at it is to say, 
what is the programming?
    Did you all get into the programming at all, or is that not 
the type of evaluation you were doing?
    Mr. Perry. We did not get into the clinical programming at 
Youth Services Administration. We did speak with the treatment 
team leaders, the psychiatrists or psychologists there, and 
documented that the youth were receiving individual treatment 
sessions, but as far as getting into the clinical, deep 
analysis, we did not go into that area.
    Senator DeWine. Now, Mr. Anderson, I believe you did say in 
your written statement and your oral statement that there was 
some Department of Justice money that was available that was 
not being utilized.
    Mr. Anderson. Yes, sir.
    Senator DeWine. What was that about?
    Mr. Anderson. That is the U.S. Department of Justice's 
performance-based standards system for juvenile facilities, 
which is available, but not being fully taken advantage of.
    Senator DeWine. Do you know why it is not being used?
    Mr. Anderson. My understanding is, because they have not 
achieved some of the performance-based standards. Mr. Perry may 
have more specific information than that.
    Mr. Perry. Specifically regarding the funding from the 
Justice Department for the grants for the substance abuse 
treatment program, the Department of Justice does provide 
funding for a grant, but the substance abuse treatment program 
has to be put in place, and there have to be certain 
qualifications or requirements that are met. Oak Hill Youth 
Center, at the time of our inspection had not met those 
requirements in order to qualify for the grant funding.
    Senator DeWine. Well, we appreciate your testimony, all of 
you, very much. We appreciate your report.
    What is your--are you going to do any additional follow-up 
to this, Mr. Anderson?
    Mr. Anderson. Yes, sir. Generally, after we received the 
responses to recommendations, we check back to ensure that 
implementation has taken place, and generally, within about a 
year, do a reinspection.
    Senator DeWine. All right. Well, we will look forward to 
that reinspection, and get your report then.
    Mr. Anderson. Okay.
    Senator DeWine. Thank you very much.
    Mr. Anderson. Thank you.
    Senator DeWine. Let me invite our second panel to come up. 
I will introduce the second panel as you are coming up. Judge 
Eugene Hamilton was designated chief judge of Superior Court of 
the District of Columbia on October 29, 1993. From August, 
2000, until November, 2001, Judge Hamilton served as Chairman 
of the Mayor of the District of Columbia's Blue Ribbon 
Commission on Youth Safety and Juvenile Justice Reform. The 
Commission published its report on November 6, 2001.
    Sir Ronald Sullivan is the Director of the Public Defender 
Service for the District of Columbia. He was appointed Director 
of PDS in June, 2002, after serving as PDS' general council. 
Previously, Mr. Sullivan was in private practice here in the 
District as a visiting attorney for the Law Society of Kenya. 
He sat on a committee charged with drafting a new constitution 
for Kenya.
    We welcome both of you. Judge Hamilton, we will start with 
you.

STATEMENT OF JUDGE EUGENE N. HAMILTON, CHAIR, MAYOR'S 
            BLUE RIBBON COMMISSION ON YOUTH SAFETY AND 
            JUVENILE JUSTICE REFORM
    Judge Hamilton. Thank you. Good morning, Senator DeWine. 
Mr. Chair and members of the committee, I am pleased to speak 
with you today regarding the District of Columbia's juvenile 
justice system. In terms of my personal outlook, and with 
regard to my professional role as a judge and former chief 
judge of the Superior Court, it is, of course, not customary 
for me to testify on matters of public policy.
    I do not speak here for the Superior Court of the District 
of Columbia or as a judge of that court. I am here today in my 
status as Chair of the Mayor's Blue Ribbon Commission on Youth 
Safety and Juvenile Justice Reform, and because I share your 
concern about the children and families of the District of 
Columbia.
    I would also like to note for the record that I appear 
before you today at your committee's request. I have also 
recently provided testimony before the Judiciary Committee of 
the D.C. Council, both at their request and on my own volition, 
as that legislative body considers proposals related to the 
District's juvenile justice system.
    I say this, as I would like to make clear that I am very 
sensitive to issues of Home Rule, and believe that the D.C. 
Council and District agencies are equipped to deal with these 
local issues of concern, for the most part, while I also 
acknowledge Congress's oversight and funding responsibilities 
for the District of Columbia.
    As I indicated, I recently had the privilege of leading an 
effort to study juvenile justice reform for the District of 
Columbia. The Mayor asked me to chair the Blue Ribbon 
Commission, which consisted of 20 talented people and an 
outstanding staff. The Commission members represented in 
various ways and from divergent perspectives, the broad 
concerns and mixed interests of this community.
    We worked together for about a year and a half. I might 
add, Senator DeWine, you had a similar experience, I believe, 
in leading the task force to study juvenile justice in the 
State of Ohio.
    The Mayor asked us to offer policy recommendations. More 
specifically, we were to assess juvenile delinquency prevention 
strategies, and explore model programs, identify strengths and 
weaknesses, and rehabilitative and supportive services and 
programs, explore the research on youth violence and substance 
abuse, examine how our current institutions were working, and 
develop strategies for serving children and youth in their 
neighborhoods and communities.
    The Mayor issued an explicit call for the Commission to 
formulate a vision and seamless network for youth services, 
ideals that treat children as children. This approach, with 
which I fully agreed, and was happy to devote time to these 
critical issues. Incidentally, this approach was consistent 
with the State of Ohio's recent reform of juvenile justice, the 
Reclaim Ohio program. That is reasoned and equitable community 
and local alternatives to the incarceration of minors.
    The problem in the District is that there has been 
virtually no follow-through on the recommendations of the Blue 
Ribbon Commission. That report, for the most part, has just 
simply gathered dust on the shelves of the city administration. 
As a result, the juvenile justice system is in worse shape 
today than it was when we started our study, as evidenced by 
the report, which has been made available here today.
    In my judgment, I think the most important things that the 
United States can do at this time are the following. No. 1, 
mandate and fund a Reclaim D.C. program. No. 2, mandate and 
fund the sunset of Oak Hill with a small, secure facility. 
Mandate and fund a juvenile justice review board to approve and 
specify treatment programs to be made available for committed 
youth here in the District of Columbia.
    I feel that the District of Columbia has had more than 
ample opportunity to demonstrate that they can succeed at 
juvenile justice without some type of oversight by the Federal 
Government. I believe they have failed at being able to prove 
that at this time. I think it is urgently needed, that the 
Federal Government step in and take some meaningful action to 
bring about change to remedy this deplorable situation that 
exists here in the District of Columbia.
    Fourth, I would recommend that the Congress mandate and 
fund juvenile-blended sentencing, and fund a juvenile/adult 
detention facility, so that we can do some reform in the 
sentencing of juveniles here in the District of Columbia.

                           PREPARED STATEMENT

    Last, I would recommend that the Congress mandate and fund 
an assessment system, and mandate a continuing assessment of 
treatment programs with judicial review for all committed 
juveniles. Thank you, Senator DeWine.
    [The statement follows:]

             Prepared Statement of Judge Eugene N. Hamilton

    Mr. Chair and Members of the committee, I am pleased to speak with 
you today regarding the District of Columbia's juvenile justice system. 
In terms of my personal outlook and with regard to my professional role 
(as a judge and as the former Chief Judge of the Superior Court), it is 
not customary for me to testify on matters of public policy. I do not 
speak here for the Superior Court of the District or as a Judge of that 
court. I am here today in my status as the Chair of the Mayor's Blue 
Ribbon Commission on Youth Safety and Juvenile Justice Reform, and 
because I share your concern about the children and families of the 
District of Columbia.
    I would also like to note for the record that I appear before you 
today at your committee's request. I have also recently provided 
testimony before the Judiciary Committee of the D.C. Council, both at 
their request and on my own volition, as that legislative body 
considers proposals related to the District's juvenile justice system. 
I say this as I would like to make clear that I am sensitive to issues 
of ``home rule'' and believe that the D.C. Council and District 
agencies are equipped to deal with these local issues of concern, while 
I also acknowledge Congress' oversight and funding responsibilities for 
the District of Columbia.
    As I indicated, I recently had the privilege of leading an effort 
to study juvenile justice reform for the District of Columbia. The 
Mayor asked me to chair the Blue Ribbon Commission, which consisted of 
20 talented people and outstanding staff, and the Commission members 
represented--in various ways and from divergent perspectives--the broad 
concerns and mixed interests of this community. We worked together for 
about a year and a half.
    The Mayor asked us to offer policy recommendations. More 
specifically, we were to: assess delinquency prevention strategies and 
explore model programs, identify strengths and weaknesses in 
rehabilitative and supportive services and programs, explore the 
research on youth violence and substance abuse, examine how our current 
institutions were working, and develop strategies for serving children 
and youth in their neighborhoods and communities. The Mayor issued an 
explicit call for the Commission to formulate a vision and seamless 
network of youth service ideals that ``treat children as children.'' 
This is an approach with which I fully agreed, and I was happy to 
devote time to these critical issues.
    The Commission did a comprehensive study of the delinquency system 
in the District of Columbia, examined the research, and looked at 
promising and effective approaches from around the country. Let me say, 
parenthetically, that the Commission, with its broad expertise and 
diversity of viewpoints, worked hard and worked successfully to find 
common ground, to find compromises and nuanced approaches that balanced 
the concerns expressed from every conceivable side of these issues. The 
Commission issued a lengthy report, which I incorporate in my 
testimony--and I ask that it be made a part of the record. In the 
Report, we provided many recommendations, which I believe, constitute a 
solid ``blueprint'' for effective reform of the juvenile justice system 
in the District. This ``blueprint'' is based on research and study, as 
well as a broad, balanced, and representative inquiry.
    I should note that I am pleased that many of the Commission's 
recommendations have now found their way into a legislative proposal--
the ``Blue Ribbon Juvenile Justice and Youth Rehabilitation Act of 
2004''--which is currently pending before the D.C. Council. This 
legislation, which seeks to codify many of the Commission's 
recommendations, is based on research and study, and a broad, balanced, 
and representative inquiry. I have testified before the Council in 
support of this legislation and will continue to encourage its passage. 
I should also note that there is other legislation pending before the 
D.C. Council--which among other things would send more youth into the 
adult criminal justice system and create policies to punish parents of 
delinquent children in the name of ``accountability''--that I believe 
would be counterproductive, and I have testified against this approach 
before the Council. I should remind you, in this regard, that as part 
of the 1997 District of Columbia Revitalization Act, the Federal 
Government assumed responsibility for housing through the Federal 
Bureau of Prison all District of Columbia persons who are sentenced to 
prison through the District of Columbia's (adult) criminal system.
    The legislation recently proposed by the City Administration is 
completely inconsistent with the Recommendations of the Blue Ribbon 
Commission. I have to point out that the proposals in the City 
Administrator's bill are also inconsistent with agreements and promises 
that his predecessors in the District of Columbia's executive branch 
made 17 or 18 years ago in the context of the Jerry M. class action, a 
lawsuit regarding both the deplorable conditions at Oak Hill Youth 
Center as well as the lack of community-based alternatives to 
incarceration for children in the District of Columbia. After failing 
for almost two decades to comply with the requirements of the Jerry M. 
consent decree, which was designed to treat children as children and 
reduce and prevent juvenile delinquency, the District now seeks to 
treat more juveniles as adults (assuming, incorrectly, that redefining 
children as adults and sending them to Federal prisons is an effective 
and humane approach for reducing and preventing criminal activity by 
children).
    One of the Blue Ribbon Commission's primary goals was to set out a 
plan to get the services and supports in our delinquency system to 
work. The Commission strongly believed that to accomplish this goal 
requires putting a sunset on the Oak Hill Youth Center. The Commission 
has recommended that we all work together to close Oak Hill and to move 
away from placing delinquent (or allegedly delinquent) children into 
large facilities. It does not work to put troubled children into a 
place with 180 other delinquent children. Furthermore, we know that 
guards are smuggling illegal drugs into Oak Hill and that children who 
tested negative for illegal drugs before entering the institution are 
now testing positive. We know also that children are confronted with 
violence and the risk of serious bodily injury at Oak Hill.
    There are better ways to secure children whom we need to constrain. 
What the Commission found is that the ``best practice'' is to limit 
juvenile incarceration facilities to 30 beds. We investigated 
approaches around the country and settled particularly on what has 
happened in Missouri. At a time when Attorney General John Ashcroft was 
the governor, Missouri successfully moved to a system in which children 
who are incarcerated are in facilities that do not exceed 30 beds. 
Predictably, following this transformation, the recidivism rate in 
Missouri has declined significantly.
    Before I describe further the Commission's recommendations, let me 
underscore another critical finding from the Commission: 100 percent of 
the committed youth in the District's delinquency system are African-
American and Latino youth. White children and youth are arrested for a 
range of delinquent offenses, but they do not end up at Oak Hill. The 
Commission recommended that we study and understand why this disparity 
exists and how to get rid of it. With this in mind, any proposed 
changes to the system should be viewed through a lens which considers 
whether the proposed change (such as sending more children to Federal 
prisons) would increase and exacerbate the racial and ethnic disparity 
and injustice that currently exists, and if so that proposed change 
should be discarded. Rather than increasing the disparate treatment, we 
should be reforming the system in ways that promote prevention, and, 
specifically, to promote racial parity and justice, we should be 
expanding community-based treatment and alternatives to incarceration 
for minority children.
    The Blue Ribbon Commission also identified and promoted for 
possible implementation in the District of Columbia several model State 
systems. The Commission identified in Figure 11, the Offenses for 
Committed Youth, June 16, 2000 to June 15, 2001. The single largest 
number offenses were unauthorized use of a motor vehicle (U.U.V.). This 
finding cries out for intensive re-habilitation and treatment programs 
shown to be effective in rehabilitating juvenile U.U.V. offenders. Over 
the period of the Jerry M. Decree, no such programs existed at Oak 
Hill. Community Programs, such as the Auto Technician Training Program 
under the direction of Mr. George Stark, are designed to place juvenile 
U.U.V. offenders in and around motor vehicles in a positive, productive 
manner, and Programs of this type should be greatly expanded.
    Moreover, the Office of Juvenile Justice and Delinquency Prevention 
(of the Department of Justice) has developed the Guide for Implementing 
the Comprehensive Strategy for Serious, Violent and Chronic Juvenile 
Offenders. The Annie E. Casey Foundation--that funded the Blue Ribbon 
Commission--has produced an extensive series of reports for 
understanding and implementing juvenile detention reform. I understand, 
as well, that the U.S. Surgeon General issued a report on Youth 
Violence in January of 2001, and that report contains a listing of 
tried and true programs, including, for example, multi-systemic therapy 
and therapeutic foster care. In the Jerry M. case, which is the 
litigation over conditions at the Oak Hill facility that I mentioned 
previously, there also exists ``Order B'' of the consent decree that 
provides a blueprint for a continuum of community-based services.
    The District of Columbia can and now must accomplish the objective 
of moving away from institutionalizing children. There is, remarkably 
enough, a consensus among all of the stakeholders in the District of 
Columbia that Oak Hill should close. Yet, it has not happened, and one 
can predict that it won't happen if we continue along the present 
course. We face the inertia of government and a particularly insidious 
Catch 22: People believe that we can't close Oak Hill (and move to the 
Missouri model) until we have adequate community-based services and 
alternatives to incarceration. At the same time, we plow the very human 
and financial resources into running Oak Hill that are necessary for 
developing the community-based services and alternatives to 
incarceration. Thus, the Jerry M. parties agree to Order B, and 18 
years later the children still don't have a continuum of community-
based services. I am reminded of what happened with Cedar Knoll. It was 
a minimum- to medium-security incarceration facility for D.C. children. 
Virtually everyone agreed that we didn't need a large institution for 
locking up relatively young children who were not dangerous. Yet Cedar 
Knoll did not close until Congress wrote in the District of Columbia's 
1993 budget that there would be no money spent on Cedar Knoll. Then, 
finally, it closed.
    In addition to setting a date for the closure of Oak Hill, there 
should be deadlines for establishing a continuum of services in the 
community. There should be a study to establish the number of secure 
beds that are needed. And on that point, I can tell you that the number 
of children at Oak Hill has dropped to as low as 120 in the last year 
or year and a half. That number--120 children--includes detained and 
committed children, and we got to that number--at least temporarily--
without having sufficient services in the community to treat U.U.V. 
offenders and other non-violent children.
    With regard to the Jerry M. Consent Orders (and I remind you that a 
consent order is an order that both parties proposed and agreed to 
before the judge ordered it), the Blue Ribbon Commission implored the 
District to comply with those Orders. Unfortunately that has not 
happened, and the substance of those Orders--particularly Order B 
calling for the creation of community-based services--has yet to be 
accomplished.
    In sum, I believe the Commission's recommendations are a solid 
``blueprint'' for reform, and I would encourage any legislators or 
policy makers considering these issues to support and fund these 
recommendations to the fullest extent possible.
    Beginning at page 27 of the Report, the Commission outlines the 
specific steps that are needed to reform the juvenile justice system of 
the District of Columbia. Key to any reform, however, is the closing of 
Oak Hill, because unfortunately, it has become simply a cruel training 
place for more sophisticated juvenile offenders. Secondly, there must 
be a sea change in the philosophy of the District's juvenile justice 
system, from primarily large institution custody to only small facility 
custody and to community-based alternatives to incarceration, together 
with frequent assessment and continuous treatment.
    Thank you again for inviting me to speak with you today, and I 
would be more than happy to answer any questions.

    Senator DeWine. Judge, thank you very much.
    Mr. Sullivan.

STATEMENT OF RONALD S. SULLIVAN, JR., DIRECTOR, PUBLIC 
            DEFENDER SERVICE, DISTRICT OF COLUMBIA
    Mr. Sullivan. Thank you, Senator DeWine. The Public 
Defender Service for the District of Columbia appreciates this 
opportunity to address you and this subcommittee on these 
important issues. In the interest of time, I shall deviate from 
my written remarks, and undertake to provide the subcommittee 
with an outline of the District's compliance or non-compliance 
with the Jerry M. Consent Decree, and the devastating effects 
the District's negligent and dilatory behavior has had on the 
children of the District.
    As you know, the Superior Court recently held the District 
in contempt and imposed monetary sanctions. Because the 
District's already poor compliance did not improve, the Public 
Defender Service, along with its co-counsel, filed a motion 
requesting the Superior Court to appoint a transitional 
receiver. The court-appointed monitor's most recent findings 
summarized the history of the District's failure to meet its 
responsibilities to the youth entrusted to its care. The 
monitor found, among other things, that the District was out of 
compliance with 81 of the consent decree's provisions, and in 
compliance with only 95. Significantly, the District decreased 
its level of compliance in 19 consent decree provisions.
    The monitor further pointed out that the District's few 
efforts to move towards compliance were last-minute actions 
that seemed, ``driven by the fact that a hearing was 
imminent.'' This sort of shotgun policy by the District should 
not be allowed to persist without consequence.
    Our contention, and that of the receivership motion pending 
before the court, is that the District has been given 18 years 
to comply with the consent decree. Despite extensive 
litigation, 65 court orders, and multiple findings of contempt, 
it has failed to do so. How long is too long? Twenty years? 
Twenty-five years? The Public Defender Service respectfully 
submits that it has already been far too long, and we have 
asked the Superior Court to step in.
    The problems with YSA and at the Oak Hill facility are 
manifest and have been well documented by the local press. A 
few examples to provide texture to the dozens of court rulings 
adverse to the District are appropriate. Indeed, as you 
mentioned in your opening remarks, a 12-year-old and a 13-year-
old were sexually assaulted by the same resident--the 13-year-
old after being placed in a room with the assailant subsequent 
to the assault on the 12-year-old.
    Violent incidents at Oak Hill, including knife fights and 
assaults serious enough to result in broken jaws, occur with 
alarming frequency at Oak Hill, thus producing an environment 
not at all conducive to treatment or rehabilitation. The 
District's practice, as you have mentioned, of assigning more 
than one child to a room has led to the commingling of status 
offenders and delinquent youth, as well as the commingling of 
delinquent and committed youth.
    This unlawful commingling invariably leads to trouble. Not 
only do these housing practices violate the plain letter of the 
consent decree and local statutory law, but they also 
compromise the very safety of the children, and have resulted 
in nothing less than the realization of everyone's greatest 
fear: harm to the children in the District's custody.
    In the recent court hearing in connection with PDS's motion 
to place YSA in receivership, the District presented government 
officials who testified that the current leadership was 
adequate to begin the process of planning to comply with the 
18-year-old consent decree. We respectfully submit that it is 
far too late.
    The government officials quibbled with our evidence on 
issues such as whether the rats observed by our experts were, 
in fact, mice. They quibbled with our experts as to whether Oak 
Hill residents suffered five instead of six broken jaws in only 
a 6-month period late last year.
    They also quibbled with respect to whether the conceded 
severe drug use by Oak Hill residents actually constituted drug 
abuse. Let me repeat that to be clear. In sworn testimony, the 
District of Columbia argued that manifest drug use by 
children--children--may not constitute drug abuse, thus 
implying that in the District's strange universe, some quantum 
of drug use by children in its care--its allegedly secure 
care--is acceptable. It is no wonder that the District cannot 
or will not come into compliance with the consent decree.
    We are currently awaiting Judge Dixon's ruling on our 
receivership motion. While we believe that the evidence we 
presented at the hearing supports our request for the 
appointment of a transitional receiver, and we are optimistic 
that the court will grant our motion, we will take little 
pleasure in this litigation win. We wish the District had the 
will and the capacity to meet its obligation without the need 
to conduct protracted litigation.

                           PREPARED STATEMENT

    Let me say in closing that in addition to our litigation 
efforts, we support litigation currently before the District of 
Columbia Council that is consistent with the findings of the 
Blue Ribbon Commission. This legislation calls for the closure 
of Oak Hill, and the development of smaller, community-based, 
secure facilities in its place, and it requires the provision 
of various services to youth, which the District has failed to 
afford to date.
    Thank you for your time and consideration, Senator.
    [The statement follows:]

             Prepared Statement of Ronald S. Sullivan, Jr.

    Good afternoon, Mister Chairman and members of the subcommittee. My 
name is Ronald S. Sullivan Jr., and I am the Director of the Public 
Defender Service for the District of Columbia (PDS). I come before you 
today to provide testimony on the experience of the Public Defender 
Service as one of the lead counsels representing the plaintiffs in 
Jerry M., et al v. District of Columbia. The complaint was filed 19 
years ago this month. Too many years have elapsed, too many hearings 
have been held, and too many court orders and findings of contempt have 
been entered for me to give a full recitation of the history of this 
case in my allotted time. Suffice it to say, from the perspective of 
the youths we represent, a full recitation would have very few 
highlights and too many lowlights in the story of how the District has 
served them. For context, I will give a cursory chronology, focusing 
mainly on the events of the past year.
    The Jerry M. class action litigation began in March of 1985 with 
the filing of a complaint challenging the District's failure to provide 
the children housed at its Oak Hill facility with adequate care and 
rehabilitation services and seeking relief on behalf of a class of 
children then being detained at Oak Hill. In July of 1986, the parties 
entered into a lengthy Consent Decree. As part of the Consent Decree, a 
Monitor was appointed to assess the District's compliance with its 
commitments. In the almost 18 years since the parties entered into the 
Consent Decree, the case has been assigned to three different judges. 
These judges, using the Monitor's reports as a basis, have separately 
found the District out of compliance with the Consent Decree on a 
number of occasions. Each judge has also been forced to enter a series 
of enforcement and other orders.
    One particularly notable order entered by Judge Urbina stemmed from 
the Consent Decree provision that called for a panel of experts to 
determine (1) the number of secure beds the District was to plan for 
and (2) the types of community-based services the District would be 
required to create. The goal of this continuum of services plan was to 
reduce the population in secure confinement and provide viable 
community-based alternatives for delinquent children. The findings of 
the original panel were incorporated into the Consent Decree by 
Memorandum Order B. Based on the recommendations of the expert panel, 
the judge ordered that the District draft a plan for a juvenile system 
in which no more than 42 youth are securely detained and no more than 
60 committed youth are securely confined.\1\ Memorandum Order B also 
requires the District to create specific community-based programs such 
as staffed, secure shelter houses; therapeutic groups homes; foster 
care for delinquent youth; and a vocational program with residential 
beds.
---------------------------------------------------------------------------
    \1\ Juveniles are ``detained'' when they are held pre-adjudication, 
i.e. before a fact-finding hearing on whether they committed the 
delinquent act(s) with which they are charged. Juveniles are 
``committed'' when a judge has determined that the juveniles did commit 
a delinquent act and has also determined that the juveniles are in need 
in services to be provided by YSA. Juveniles are said to be ``committed 
to YSA.'' District Code  16-2313(b) requires that detained youth and 
committed youth be confined separately.
---------------------------------------------------------------------------
    The case is currently before the Honorable Judge Dixon. In 
September 2002, Judge Dixon held a hearing requiring the District to 
show cause why it should not be held in contempt for failing to comply 
with six specific provisions of the Consent Decree. These provisions 
involved the adequate training of staff, the quality of the assessment 
and diagnosis of the children, the existence and quality of the pre-
release unit, and the sufficiency of exercise provided to the children 
at Oak Hill. Two months later, in November 2002, plaintiffs filed an 
emergency motion alleging that the District was failing to comply with 
two additional provisions involving overcrowding in the girls' unit and 
the staffing of a program called Project Hands.\2\ In June 2003, Judge 
Dixon ruled on the September 2002 hearing, finding that the District 
was in violation of the Consent Decree. He found that there was a lack 
of proper training of the Oak Hill staff and inadequate supervision of 
the staff. In addition, he found inadequate coordination between the 
teams that are responsible for assessing the treatment needs of the 
youths when they enter the facility and the teams that are responsible 
for delivering the treatment. Finally, Judge Dixon found the District 
was failing to comply in the area of providing adequate facilities 
prior to a youth's release from confinement. Judge Dixon held the 
District in contempt and imposed monetary sanctions. However, the judge 
also allowed a grace period during which the District was to cure the 
violations. The grace period was different for each violation, but the 
last grace period expired in mid-September 2003. At the end of each 
grace period, the District filed notices claiming to be in compliance 
with the disputed Consent Decree provisions.
---------------------------------------------------------------------------
    \2\ Project Hands is a division of YSA that investigates 
allegations of staff misconduct at Oak Hill, including allegations of 
assaults on youth by staff.
---------------------------------------------------------------------------
    In September 2003, Judge Dixon held an evidentiary hearing on the 
plaintiffs' November 2002 emergency motion asking that the District be 
found in contempt for failing to comply with the Consent Decree by 
having an overcrowded girls' unit and improperly staffing Project 
Hands. In addition, the hearing was to address the question of whether 
the District had cured violations with respect to the pre-release unit 
at Oak Hill. Judge Dixon has not yet ruled. In October 2003, Judge 
Dixon had a hearing to determine whether or not the District had come 
into compliance with the Consent Decree provisions concerning staff 
training, staff supervision, and coordination between assessment staff 
and treatment staff. On October 6, 2003, in anticipation of the coming 
hearing, the Monitor issued a report finding that the District remained 
out of compliance with respect to each of these issues. In December 
2003, plaintiffs filed a motion requesting the court appoint a 
transitional receiver. Judge Dixon held a hearing on the receivership 
motion in February 2004.
    I should draw attention to one other aspect of the litigation. The 
District has liked to point to the school at Oak Hill as one area in 
which it has managed to come into compliance. While the school is 
currently a bright spot at Oak Hill, the District is neither in full 
compliance with the Consent Decree, nor does it deserve full credit for 
what has been achieved. In June 1997, the Court, at the time Judge 
Levie, found the District in contempt of the education provisions of 
the Consent Decree and appointed Dr. Peter E. Leone as special master 
for education. Dr. Leone was the receiver for education at Oak Hill 
from 1998 to 1999 and was able to help the District significantly in 
complying with the Consent Decree regarding Oak Hill's education 
system. At the receivership hearing, Dr. Leone pointed to five main 
areas of achievement during his tenure as educational receiver at Oak 
Hill: (1) academic achievement; (2) school climate; (3) human 
resources; (4) fiscal resources; and (5) leadership.
    Despite the great strides made by Dr. Leone, the educational system 
at Oak Hill is still not in complete compliance. For example, there 
remain significant problems with nonattendance by some units and a lack 
of sufficient YSA programs to reintegrate youth at Oak Hill into the 
community education system upon their release. Dr. Leone testified at 
the receivership hearing that residents in the disciplinary unit and in 
the girls' unit are not getting standard educational services because 
of poor coordination among various departments at Oak Hill. Moreover, 
the Monitor in his latest report found that, while YSA contracts with 
the University of the District of Columbia for vocational classes for 
the boys, there are no equivalent programs for girls.
    The Public Defender Service believes that the accomplishments of 
Dr. Leone as the receiver for education at Oak Hill demonstrate what a 
receiver could accomplish for the whole system. And the whole system is 
in need of repair. Just prior to the hearing on the receivership 
motion, the Jerry M. Monitors issued their 51st report on the 
District's compliance with the Consent Decree, evaluating the prior 6 
months. The Monitor's most recent findings exemplify the history of the 
District's failure to meet its responsibilities to the youth entrusted 
to its care. The Monitor found the following:
  --The District was out of compliance with 81 of the Consent Decree's 
        provisions and in compliance with only 95. See Exhibit 1.
  --The District decreased its level of compliance in 19 Consent Decree 
        provisions.
  --The prior 6 months were a ``microcosm'' of the past almost 18 years 
        of the District's failed efforts to comply with the Consent 
        Decree, as demonstrated by the latest leadership void which 
        exists at YSA and the lack of both a permanent Superintendent 
        and an Assistant Superintendent in charge of treatment at Oak 
        Hill. While the District appointed two lawyers--Marceline 
        Alexander and Mark Back--from the Office of the Corporation 
        Counsel, to assume the mantle at YSA on an interim basis, 
        neither Ms. Alexander, who is currently the Interim 
        Administrator for YSA, nor Mr. Back, who is her special 
        counsel, have any juvenile justice experience.\3\
---------------------------------------------------------------------------
    \3\ In fact, over the past 8 months, there have been four different 
YSA administrators, including Ms. Alexander; three Deputy 
Administrators for Secure Programs; four Deputy Administrators for 
Court and Community Services; two Superintendents of Oak Hill; and 
three Assistant Superintendents in Charge of Treatment.
---------------------------------------------------------------------------
  --Accordingly, there were few efforts to move towards compliance 
        except for last-minute actions that seemed ``driven by the fact 
        that a hearing was imminent'' rather than a real effort to make 
        positive change in the manner in which District children are 
        being treated and rehabilitated.
    Our contention in the receivership motion and at the hearing was 
this--the District has been given 18 years to comply with the Consent 
Decree, and, despite extensive litigation, 65 court orders, and 
multiple findings of contempt, has failed to do so. Accordingly, the 
plaintiffs requested that the Court appoint a transitional receiver to 
assume control of YSA until the Consent Decree's mandates could be met 
and maintained. Plaintiffs' motion noted numerous examples of non-
compliance, including YSA's failure to follow a suicide prevention plan 
for youth at Oak Hill, its failure to address the recurring violence 
against securely confined children by both Oak Hill residents and 
staff, the commingling of detained and committed children, 
overcrowding, and the ongoing environmental problems at Oak Hill, 
including lack of proper heating and cooling and lack of pest control.
    The defendants responded that the Court did not need to take the 
extraordinary step of appointing a receiver because, in essence, the 
District was making ``incremental progress'' in complying with the 
strictures of the Consent Decree and because appropriate leaders were 
now again in place to ensure that YSA could continue to plan to make 
reform efforts.
    Judge Dixon held the hearing on the motion for a transitional 
receiver February 23-25. At the hearing, the plaintiffs presented 
comprehensive evidence of the failure of YSA to create a safe 
environment for children at Oak Hill and the specific failings of the 
District's efforts to comply with the 1986 Consent Decree, arguing that 
the District's claims of incremental progress were dubious since the 
defendants had been given ample time to comply and that it was now time 
for the Court to intervene and secure final compliance. The primary 
witness for the plaintiffs was Paul DeMuro, an expert in juvenile 
justice and child welfare services. He testified that the District had 
failed to comply with the Decree and that the Court should appoint a 
receiver because the District had: (1) failed to protect youth 
committed to YSA from harm; (2) failed to implement an effective 
classification and treatment program at Oak Hill, such that residents 
suffered long periods of lockdown, detained and committed and low and 
high-risk youth are intermingled, treatment is not tailored to a 
youth's particular needs, and substance abuse treatment is inadequate; 
(3) failed to develop an effective system of management and quality 
control so that staff and programs throughout YSA can be held 
accountable; and (4) failed to develop and implement a viable community 
continuum of care, such that community-based alternatives to secure 
detention at Oak Hill failed due to weak supervision, substandard 
housing, and a lack of accountability. In fact, just as in Oak Hill, 
the shelter houses merely warehouse children rather than provide 
therapeutic services: (1) there is no clinical supervision of staff; 
(2) many youth arrive without school placements; (3) few children in 
shelter houses receive drug treatment; and (4) there is no individual 
or family counseling for children. Notably, in July 2002, after 
studying the group home and shelter house problem and in consultation 
with the Jerry M. parties, an expert gave the District specific 
recommendations regarding the issuing of requests for proposals 
(``RFP's'') from new shelter and group home providers equipped to offer 
the services required by the Consent Decree. While the District, faced 
with a receivership hearing, finally completed RFP's for 3 new 
programs, it still has not fully implemented the expert's 
recommendations some 2 years later.
    The observations of our expert, the court-appointed monitor, and 
the Inspector General only hint at the breadth of the District's 
failure to protect children at Oak Hill from harm. Violent incidents--
including knife fights and assaults serious enough to result in broken 
jaws--occur with alarming frequency at Oak Hill. Life on the 
residential units at Oak Hill is quite harsh and, accordingly, not at 
all conducive to treatment. In one particularly disturbing incident 
that took place just last fall, nine residents sexually assaulted 
another resident in the victim's room.
    In addition, the practice of assigning more than one child to a 
room has led to the commingling of status offenders and delinquent 
youth, as well as delinquent and committed youth. For example, these 
practices led just last summer to a child detained as a truant and 
runaway being housed in the same room as a youth detained on charges of 
negligent homicide. The District also housed in another room both a 
runaway and a child detained for a number of serious delinquency 
reasons, including armed robbery and carrying a dangerous weapon.
    Not only do these housing practices violate the plain letter of the 
Consent Decree, but they also compromise the very safety of the 
children and have resulted in nothing less than the realization of 
everyone's greatest fear: harm to children in the District's custody. 
For example, just last year, a 12-year-old child, held at Oak Hill as 
an overnighter and not accused of any crime, was placed in a room with 
two other children. An overnighter is a child eligible for release 
after some police contact, but whose parents cannot be reached. The 
overnighter was sexually assaulted by one of the other youth. There was 
no indication that any staff members were supervising the youth, as 
staff only learned of the incident 2 days later. Several months later a 
13-year-old was arrested and held at Oak Hill waiting for shelter house 
space. The 13-year-old was placed in a room with the same child who 
committed the prior sexual assault, and another sexual incident 
occurred. Perhaps equally troubling is the fact that there is evidence 
that these types of incidents may be even more widespread than we know, 
as incidents at Oak Hill are underreported.
    The defendants, in response, presented District government 
officials at the hearing, who testified that the current leadership was 
adequate to begin the process of planning to comply with the 18-year-
old Consent Decree, quibbling with plaintiffs' evidence on issues such 
as whether the rats observed by Mr. DeMuro were in fact mice, whether 
Oak Hill residents suffered five or six broken jaws from July through 
December 2003, and whether the conceded severe drug use by Oak Hill 
residents actually constitute drug abuse.
    The parties filed post-hearing briefs 2 weeks ago and reply briefs 
just last week. We are currently awaiting Judge Dixon's ruling. While 
we believe that the evidence we presented at the hearing supports our 
request for the appointment of a transitional receiver and we are 
optimistic that the court will grant our motion, we would take little 
pleasure in this litigation win. We wish the District had the will and 
capacity to meet its obligations without the need to conduct protracted 
litigation. Indeed, our overriding vision and our goal for the past 19 
years has been the provision of adequate care and rehabilitation 
services for the children committed to YSA. The Public Defender Service 
consists of a group of lawyers; we do our work in the courts. Thus, our 
primary way of working towards our goal is through this litigation. 
However, litigation is but one of many means to an end. That is why we 
support legislation currently before the District of Columbia Council 
that calls for the closure of Oak Hill and the development of smaller, 
community-based secure facilities in its place and requires the 
provision of various services to youth which the District has failed to 
afford to date. There are many roads to the destination of providing 
adequate care and rehabilitation to youth in the juvenile justice 
system. The Public Defender Service will be satisfied to reach that 
destination by any of those routes. We are not satisfied to continue to 
take the incremental steps forward, with many steps back, that has been 
the history of YSA's actions in this case. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator DeWine. Judge Hamilton, Mr. Sullivan, who advocates 
that Oak Hill stay open?
    Judge Hamilton. I guess the----
    Senator DeWine. Does anybody advocate that this place stay 
open?
    Judge Hamilton. The only implicit advocate is the District 
of Columbia, the administration, which refuses to really take 
meaningful steps in planning to sunset that institution.
    Senator DeWine. Well, is it not really a dinosaur from the, 
I do not know what decade you want to pick. I do not know if it 
is a dinosaur from any decade, the way you describe it, and the 
way my staff describes it. I have not been out there, but my 
staff has described it as just, in unbelievable terms to me, 
absolutely shocking.
    Judge Hamilton. Absolutely. That is the reaction of any 
reasonable person.
    Senator DeWine. Yes.
    Judge Hamilton. I just cannot imagine how any person in 
authority would suffer that institution to continue. It is 
beyond my comprehension.
    Senator DeWine. Well, it looks like, to me, it is beyond--
you cannot fix it.
    Judge Hamilton. You cannot. No, sir.
    Senator DeWine. Your description, Mr. Sullivan, of the 
proposal of just doing away with it, and breaking it down into 
what we do today, which is smaller facilities, and manageable 
facilities, more humane homes, places to operate, is probably 
what needs to be done.
    Judge Hamilton. I agree, but I emphasize that--I think that 
there has to be some meaningful substantial Federal oversight 
in order to accomplish that. I mean given 20 years of 
litigation, which has just dragged on, and on, and on, I just 
doubt that the city has the will and the inclination to sunset 
that institution. I have seen no evidence, whatsoever, that the 
city is willing to do that.
    Mr. Sullivan. Nor have I, Senator DeWine. What is most 
distressful about the situation is that the Blue Ribbon 
Commission provides a very good blueprint as to how juvenile 
justice should be carried out in the District. We participated 
on the Commission. The U.S. Attorney participated. The 
Corporation Counsel participated. All of the experts 
participated. As the judge said, it has been virtually ignored.
    Senator DeWine. Judge, when your Blue Ribbon Commission 
came up with the report, was there much opposition to the 
report?
    Judge Hamilton. Absolutely not. Every member of the 
Commission signed the report except the United States' 
attorney's representative. It had whatever reasons it had for 
not doing so, but otherwise, every community representative, it 
was a broad-based community representation, every other member 
signed it.
    Senator DeWine. That was November 6, 2001.
    Judge Hamilton. Correct.
    Senator DeWine. Well, it is hard to know where to begin 
when you look at the magnitude of this problem. I will go back 
to what I started in this discussion, to me, the most shocking 
thing is this commingling of these kids. I mean it is all 
shocking. It is all shocking, but then you start with kids who 
do not really--who clearly have problems.
    The kid runs away. The kid has some problems. Then you dump 
that poor child in with another child who has huge problems, 
who is a sex offender, and are many times a predator, who preys 
on this one child. So now you have created more problems. It is 
just unbelievably unfair to that child.
    Then you look at the cost. I mean it is not like this was 
being done cheaply. Judge and Mr. Sullivan, I asked the first 
panel this question. I am going to ask you, just so we can 
understand. For close to $90,000 a year, what are the services 
that are being provided these kids out there?
    Judge Hamilton. Mr. Sullivan may know better than I, but I 
am hard put to put my finger on any treatment programs that are 
being provided for these children. No. 1, there is no reliable 
assessment system, so we do not really know what the kids 
problems are, and we do not really know what treatment programs 
need to be provided. Then if we know what the problems are, 
what treatment programs are needed, there are none.
    For example, the major class of offender, who is committed, 
are car theft offenders, UUV offenders. There are no programs 
that are targeted for UUV offenders. There are no sex offender 
programs. There are no treatment programs that are identifiable 
that can address the variety of problems that these committed 
children have. That is serious.
    Senator DeWine. Mr. Sullivan.
    Mr. Sullivan. I agree 100 percent. The District simply 
warehouses children, both at Oak Hill and in the shelter house 
system. There are precious little, if any, therapeutic 
mechanisms to address any of the issues that the children have.
    The District, I will say, has shown some improvement with 
respect to the education system, but only after that system was 
put in receivership, and a receiver made some substantial 
changes.
    Senator DeWine. Judge, you called Oak Hill, and I quote, 
``A cruel training place for more sophisticated juvenile 
offenders.'' I would assume that the recidivism rate coming out 
of there must be pretty high.
    Judge Hamilton. It is. It is the worst thing that you can 
do to a child, to send him to Oak Hill. But unfortunately, in 
all too many cases, there are no alternatives. We need 
reasonable and equitable community and local alternatives to 
the incarceration of minors, as was established in the State of 
Ohio, because there are so many kids that do not need 
incarceration at all. They can be treated in the community. We 
just do not have it.
    Senator DeWine. I want to explore that with you a little 
bit, Judge. The unique challenge that the District has is that 
the District is not a State. The District does not have the 
local resources that a State like Ohio does. As you know, I am 
very familiar with the Reclaim Ohio program. I was very much 
involved in the development of that.
    Part of the principle of that program is that you try to 
tailor the program for each child. Your incarceration fits the 
child, and you try to do whatever is appropriate for the child. 
You try to do it locally, if you can. You only send, in Ohio, 
we only send, quote, to the State those kids who just cannot be 
dealt with locally.
    How does that, though, apply to the District, that does not 
have the local government resources? I mean that is the 
challenge, is it not, that the District has? To play the 
devil's advocate, the people who would look at this maybe from 
the other side would say, ``Well, look, we do not have the 
resources.'' How do we answer that?
    Judge Hamilton. Well, they may not have the resources, but 
they have had 20 years to come to the Congress and say that 
they did not have the resources to make treatment of juveniles 
local. There is a lot of treatment that can be done right in 
the communities that these children come from. If these 
resources are developed, and if there is a change from putting 
this money out in places like Oak Hill into these community 
treatment facilities, that is what we have been trying to get 
for 20 years here in the District of Columbia.
    Senator DeWine. So our total--what is the total operating 
cost then of Oak Hill? Does anybody in the room know that? Does 
anybody have that? I have not done the math here, so I do not 
know what the----
    Judge Hamilton. I have no----
    Mr. Sullivan. I do not----
    Senator DeWine. Mary has it here. Is that Oak Hill? That is 
not just Oak Hill, though. That is YSA. Well, we will get that 
before the hearing is over, if somebody can do that for us.
    I mean the bottom line is, you have a pot of money.
    Mr. Sullivan. Right.
    Senator DeWine. You would have to figure out, I guess, if 
you closed it, what do you do with that pot of money? Maybe it 
is going to take more money to provide the resources. But at 
close to $90,000 per child, I would think that you could buy 
some services for those kids somewhere else.
    Judge Hamilton. That is a lot of money.
    Senator DeWine. It is a lot of money. There has to be 
secure facilities. I mean some of these kids are, I assume, 
pretty tough kids, and you are going to have buy secure 
facilities for some of these kids. But a truant, it is going to 
be a different story----
    Judge Hamilton. Right.
    Senator DeWine [continuing]. Too. I mean some of these kids 
were truants, according to what I hear.
    Mr. Sullivan. That is correct. As the Inspector General's 
report pointed out, there are even unused monies available to 
the District--with respect to drug treatment programs.
    Regrettably, it is not a difficult proposition to follow 
the Blue Ribbon Commission report. At least try. Then if the 
District says we do not have enough resources, then come to the 
appropriate authority, and request them. But the Mayor actually 
recently submitted legislation that is antagonistic to the 
goals of the Blue Ribbon Commission's----
    Senator DeWine. Well, I guess my question to this group, 
and I was not chairman at the time, when the Blue Ribbon 
Commission came out, but I guess my question is back to what I 
asked the Judge before, is whether or not there was a consensus 
in regard to the Blue Ribbon report. Because if there is a 
consensus, then it is only a question of getting the resources.
    Judge Hamilton. Absolutely.
    Senator DeWine. Then it is just the question of, can you 
put the resources together, and then can you move 
incrementally, and put piece by piece of the report together. 
You might not get it all in the first few years, but at least 
you try to build from that report.
    Judge Hamilton. Absolutely, Senator DeWine. Every member of 
that Commission signed the report, and endorsed the report, 
after long and serious discussions, except one. That is the 
fact of the matter.
    Senator DeWine. Well, I appreciate your testimony. Senator 
Landrieu is here. Mary, I do not know if you have any opening 
statement, or if you have any questions. We are about to move 
to the third panel.
    Senator Landrieu. No. I only heard the last few minutes of 
the last----
    Senator DeWine. Okay. Good. Well, Judge, we appreciate your 
testimony----
    Judge Hamilton. Thank you.
    Senator DeWine [continuing]. Very much. We look forward to 
working with you on this problem. We look for you to maybe help 
us as a consultant.
    The Federal Government, in the past, has made some 
contribution here. What else we can do in the future is 
something we are going to have to work with you on.
    Judge Hamilton. Well, I emphasize----
    Senator DeWine. I understand what you are saying, and we 
want to help.
    Judge Hamilton. All right.
    Senator DeWine. We would not have this hearing if we did 
not want to help. That is why we have the hearing. We want to 
see what we can do.
    Judge Hamilton. I would be delighted to, sir.
    Senator DeWine. We want to work with you.
    Judge Hamilton. Thank you.
    Senator DeWine. Mr. Sullivan, it is good to see you again.
    Mr. Sullivan. Thank you.
    Senator DeWine. Thank you, sir. Let me invite our third 
panelists, the City Administrator and Deputy Mayor of the 
District of Columbia, Robert Bobb. He served in a similar 
capacity in four other cities, spanning nearly 30 years. 
Beginning in 1974, he was appointed to serve in Kalamazoo, 
Michigan, as assistant city manager. After Kalamazoo, he served 
as city manager in Santa Anna, California, for 2\1/2\ years, in 
Richmond for 11\1/2\ years, and Oakland, California for 5\1/2\ 
years.
    He is accompanied by Ms. Alexander, interim Director of the 
Youth Services Administration. Mr. Bobb, thank you for joining 
us.

STATEMENT OF ROBERT C. BOBB, CITY ADMINISTRATOR AND 
            DEPUTY MAYOR, DISTRICT OF COLUMBIA
ACCOMPANIED BY:
        MARCELINE D. ALEXANDER, INTERIM ADMINISTRATOR, YOUTH SERVICES 
            ADMINISTRATION
        MARK D. BECK, INTERIM SPECIAL COUNSEL, YOUTH SERVICES 
            ADMINISTRATION

    Mr. Bobb. Thank you. Good morning.
    Senator DeWine. You have had the opportunity to listen to 
all of the other testimony. You can make your own statement, 
respond to any questions or comments that have been made so 
far. If you can confine it to 5 minutes, that will give us a 
chance to have a good dialogue with you.
    Mr. Bobb. Thank you very much.
    Senator DeWine. Thank you for joining us.
    Mr. Bobb. Good morning, Mr. Chairman, and distinguished 
members of the subcommittee on the District of Columbia. My 
name is Robert C. Bobb, City Administrator and Deputy Mayor for 
the District of Columbia government.
    I appreciate the opportunity to appear before you this 
morning to testify on behalf of Mayor Williams. Our Mayor is 
deeply committed to improving the status of children throughout 
the District of Columbia, and in particular, those who are 
under the guidance of the Youth Services Administration.
    I also would like to report on substantial progress that we 
are making and have made in addressing a number of deficiencies 
at the Youth Services Administration, as identified by the 
Inspector General, and the code monitor in the Jerry M. 
litigation.
    Joining me this morning at the witness table are two 
members of my management team, Marceline D. Alexander, Interim 
Administrator of the Youth Services Administration, and Mark D. 
Beck, Interim Special Council for the Youth Services 
Administration.
    Based on my recommendations, Mayor Williams appointed these 
capable managers on December 3, 2003, to help my office conduct 
a top-to-bottom review of the Youth Services Administration, 
and to stabilize the agency.
    On October 15, 2003, 9 days after my first day on the job, 
I attended a meeting with the Deputy Mayor for Children, Youth, 
Family, and Elders, and attorneys from the Office of the 
Corporation Counsel, to discuss the status of the Jerry M. 
litigation and coordination issues between the various District 
departments providing services to our youth.
    For those of you who may not know, the Jerry M. litigation 
is a class action filed in 1985 by the D.C. Public Defender 
Service and ACLU National Prison Project against the District 
to address certain issues involving the care and custody of 
detained committed youth in the District's juvenile justice 
system.
    Following that meeting, I convened a number of subsequent 
meetings in October and November, 2003, to confront the issues 
facing the Youth Services Administration. I assembled a team of 
in-house government experts to sit around the table together, 
in order to drive resolution of the issues, so that I could 
take action to stabilize this agency. That team included my 
chief of staff, Deputy Mayor for Public Safety and Justice 
Operation, and directors of the Departments of Human Services, 
Mental Health, and Corrections.
    The first order of business was to professionalize the 
perimeter and the entrance security for Oak Hill Youth Center, 
because there were concerns of whether security was tight 
enough for persons entering that secure facility. Working with 
the team, I issued orders to terminate for convenience the 
contractor who had been providing those services, and to put 
the Department of Corrections in charge of external security, 
because I wanted to have the director and the District security 
experts accountable and responsible to me for providing an 
increased level of security for our employees and visitors.
    The Department of Corrections began providing security at 
Oak Hill Youth Center beginning November 16, 2003. A memorandum 
of understanding between the Human Services and Corrections are 
in place throughout the balance of this fiscal year.
    On November 21, 2003, I spent time at Oak Hill. I also 
visited a number of group homes to get a better picture of how 
those homes were operating. I reconvened that team that I had 
assembled in October and shared my views and thoughts, and that 
we immediately needed to stabilize the Youth Services 
Administration.
    While I was city manager of Richmond, Virginia, I hired an 
expert in juvenile justice to assist in designing a continuum 
of care services program for juveniles. That was the right 
approach for what was needed in those circumstances where we 
were developing an entire new continuum of care program. Based 
on my 30 years of city management experience, I concluded that 
a different approach was needed for the Youth Services 
Administration, because of the instability caused by the 
departure of the administrator, her two deputy administrators, 
the chief administrative officer, and the Oak Hill Youth 
Center's superintendent.
    I personally selected and recommended to the Mayor, new 
leadership for the Youth Services Administration. I chose Ms. 
Alexander as interim administrator, because she is someone who 
knows the District government, and who knows how to get things 
done in this city.
    Beginning in early 2003, Ms. Alexander had been assigned by 
the City to various troubled agencies within the District of 
Columbia, and did an outstanding job. As an 18-year employee of 
the District of Columbia, a fine lawyer, and a certified public 
manager, Ms. Alexander is the right person for the job. I am 
fortunate to have her on my team.
    Since her arrival on December 3, Ms. Alexander has moved to 
fill critical vacancies in the Youth Services Administration, 
hiring 33 new employees, including the assistant superintendent 
for treatment, for both Oak Hill Youth Center and the Youth 
Services Center. We have also employed additional correctional 
officers, five treatment team leaders. These are critical hires 
for the agency, because these are the employees who provide 
direct services to our youth.
    We also employed Dr. Sybil Smith-Gray as an assistant 
superintendent, who is a licensed clinical psychologist, and 
who had worked collaboratively with the Department of Mental 
Health, to provide additional mental health services and to 
improve our therapeutic atmosphere in working with youth at the 
Oak Hill Youth Center.
    The Mayor has also proposed in his 2005 budget, a 
significant increase in funding of $18 million, or a 40 percent 
increase over the base year of 2004, wherein, we are hiring 71 
additional full-time employees in the Youth Services 
Administration to staff a new Youth Services Center in the 
District, to implement Jerry M. compliance and organizational 
improvements, and to fund other service delivery. The new Youth 
Services Center is an 80-bed diagnostic facility, which will be 
located on Mount Olivet Road, here in the District of Columbia.
    As part of our management team, management reform 
initiative, Ms. Alexander is reorganizing the agency, and 
filling several key management positions in that agency.
    The Office of the Inspector General's Inspections 
Evaluation Division issued its report, which we received a copy 
of today. The Department of Human Services provided its 
comments to the 45 findings and 96 recommendations, pursuant to 
the Inspector General's report.
    During the course of the Part I inspection, the Inspector 
General also issued seven management alert reports on matters 
that the inspection team found required the immediate attention 
of the District of Columbia government officials. The Youth 
Services Administration responded to each of these management 
alert reports, and is taking specific action to address each of 
the deficiencies identified in the report, as detailed in my 
written statement, which provides much more detail.
    The subcommittee has asked me to testify about whether a 
receiver should be put in place for the Youth Services 
Administration. Let me begin by expressing my understanding 
that the presiding Chair requested that the parties not try the 
motion in the media. Of course, I am mindful of the court's 
ammunition.
    However, the subcommittee has specifically requested that 
the District present testimony on this important issue, and I 
will do so. The Superior Court of the District of Columbia held 
a 3-day hearing on the motion in February, and I testified on 
the government's behalf on the third day of the hearing.
    Of course, I leave representation of the District of 
Columbia and the Jerry M. litigation in the capable hands of 
our corporation council and his assistants. I understand that 
the plaintiffs bear the burden of demonstrating that a 
transitional receiver should be appointed to oversee the Youth 
Services Administration, and the trial court must consider the 
six factors identified in my written statement.
    We have urged the court in our findings not to impose a 
receiver, and we urge the same result this morning. The Jerry 
M. consent decree entered by the court in 1986 comprised 185 
provisions and 43 pages of requirements governing the delivery 
of services by the Youth Services Administration. These 
provisions cover a broad range of complex issues, including 
diagnostic and treatment services, education, mental health, 
medical services, discipline and training, recreation 
transition, and after-care services environment, and sanitation 
and community programs.
    The District has made incremental progress over the course 
of the last 2 years. The monitor's fifty-first report, the 
latest, measured the 6 months between July 1 and December 31, 
2003, the time period following the departure of the former 
administrator, who provided stable leadership prior to her 
departure. This was a period of great transition.

                           PREPARED STATEMENT

    I cannot say that I am satisfied with the District 
remaining under the litigation nearly 18 years after it was 
first initiated. I can say, however, that I am very confident 
in our current direction, and with the progress that we are 
making, and feel that our current approach, not a transitional 
receiver, is without question the best way for the District to 
meet the requirements of the consent decree. Thank you.
    [The statement follows:]

                  Prepared Statement of Robert C. Bobb

    Good morning, Mr. Chairman and distinguished members of the U.S. 
Senate, Committee on Appropriations, Subcommittee on the District of 
Columbia. My name is Robert C. Bobb and I serve as the City 
Administrator and Deputy Mayor for the District of Columbia Government. 
I appreciate the opportunity to appear before you this morning to 
testify on behalf of Mayor Anthony A. Williams and to share with this 
subcommittee the substantial progress that we are making in addressing 
a number of deficiencies at the Youth Services Administration as 
identified by the Inspector General and the Court Monitor in the Jerry 
M. litigation.
    Joining me this morning at the witness table are two members of my 
management team: Marceline D. Alexander, Interim Administrator of the 
Youth Services Administration, and Mark D. Back, Interim Special 
Counsel for the Youth Services Administration. Based on my 
recommendation, Mayor Williams appointed these capable managers on 
December 3, 2003, to help my office conduct a top-to-bottom review of 
the Youth Services Administration and to stabilize the agency until we 
can put a permanent, juvenile justice professional in place.
    A short autobiographical history is appropriate before I address 
the deficiencies at the Youth Services Administration and the pending 
issue of receivership. Before assuming my duties as the District of 
Columbia's City Administrator and Deputy Mayor on October 6, 2003, I 
already had served in a similar capacity in four other cities spanning 
nearly 30 years. Beginning in 1974, I was appointed to serve in 
Kalamazoo, Michigan as Assistant City Manager. I served as Assistant 
City Manger in Kalamazoo for 2 years before becoming Acting City 
Manager and then City Manager and serving an additional 8 years. After 
Kalamazoo, I served as City Manager in Santa Ana, California for 2\1/2\ 
years; in Richmond, Virginia for 11\1/2\ years, and in Oakland, 
California for 5\1/2\ years. In Oakland, I also served as the Executive 
Director of the City of Oakland Redevelopment Agency.
    Prior to agreeing to my current position, I reviewed a series of 
newspaper articles on the issues facing the District of Columbia and 
the Williams Administration, one of which was the Youth Services 
Administration. I had prior experience with juvenile justice issues in 
Richmond, Virginia where I was responsible for both city and county 
functions. One of those functions included responsibility for the 
juvenile courts as well as the juvenile detention facilities. In 
Richmond, I appointed a juvenile justice expert to put in place a 
continuum of care services where the courts could decide, based on the 
severity of the youth's offenses and other issues, whether to place the 
youth in a community-based program, in the city's detention facility, 
or in Hanover County's more stringent juvenile facility. In the 
District of Columbia, the decision of where to place a detained youth, 
a youth who is awaiting court disposition of charges, rests with the 
court. For committed youth, a youth who has been adjudicated by the 
Court as involved in criminal activity, placement decisions reside in 
the Youth Services Administration. The point is that I am familiar with 
juvenile justice issues and I was aware of many of the issues 
concerning the Youth Services Administration prior to my arrival.
    On October 15, 2003, 9 days after my first day on the job, I 
attended a meeting with the then Deputy Mayor for Children, Youth, 
Family, and Elders and attorneys from the Office of the Corporation 
Counsel to discuss the status of the Jerry M. litigation involving the 
Youth Services Administration and coordination issues between various 
District departments providing services to our youth. For those of you 
who may not know, the Jerry M. litigation is a class action filed in 
1985 by the D.C. Public Defender Service and the ACLU National Prison 
Project against the District to address certain issues involving the 
care and custody of detained and committed youth in the District's 
juvenile justice system.
    Following that first meeting, I convened a number of subsequent 
meetings in October and November 2003 to confront the issues facing the 
Youth Services Administration. As is my management style, I assembled a 
team of in-house government experts to sit around the table together in 
order to drive resolution of the issues so that I could take action to 
stabilize that agency. That team included my Chief of Staff, the Deputy 
Mayor's for Public Safety & Justice and Operations, and the Directors 
of the Departments of Human Services, Mental Health, and Corrections. 
It is important to recognize that the Youth Services Administration is 
one of five administrations within the Department of Human Services.
    The first order of business was to professionalize the perimeter 
and entrance security for the Oak Hill Youth Center because there were 
concerns of whether security was tight enough for persons entering that 
secure facility. Working with the Deputy Mayors for Public Safety & 
Justice and Operations, the Chief Procurement Officer and the Director 
of the Department of Corrections, I issued orders to terminate for 
convenience the contractor who had been providing those services and to 
put the Department of Corrections in charge of external security. I 
wanted to have the Director of our Department of Corrections, as the 
District's security expert, accountable and responsible to me for 
providing an increased level of security for our employees and 
visitors. The Department of Corrections began providing security at the 
main entrance to the grounds and at the sally port entrances to the 
facilities at the Oak Hill Youth Center beginning November 16, 2003, 
and the Memorandum of Understanding between the Departments of Human 
Services and Corrections provides for continued security services by 
Corrections through the end of the fiscal year.
    I have been quoted as calling ``the entire system just broken'' 
shortly after my visit to the Oak Hill in November 2003. This quote is 
accurate but is best understood in context. The Administrator who had 
run the Youth Services Administration for 5 years had resigned in July 
2003, and there were a series of Acting Administrators; the Deputy 
Administrator for Secure Programs (which includes the Oak Hill Youth 
Center) resigned in October 2003; and the Oak Hill Youth Center 
Superintendent, the Deputy Administrator for Court and Community 
Programs (which includes oversight of aftercare services and court 
liaison activities), and the Chief Administrative Officer were each 
terminated on the day of my visit. On November 21, 2003, I spent a 
little over an hour touring the facility and talking with senior level 
staff. I also visited a number of group homes to get a better picture 
of how those homes were operating. Following these unannounced visits 
to Oak Hill and the group homes, I reconvened the team I had assembled 
in October and shared my views and thoughts that we immediately needed 
to stabilize the Youth Services Administration by putting a management 
team in place to stabilize the infrastructure and to address all of the 
issues surrounding the agency. I candidly admitted in my testimony to 
the court that ``there was no management to any large degree in 
place.''
    I have already testified that while I was City Manager in Richmond, 
Virginia, I hired an expert in juvenile justice to design a continuum 
of care program. That was the right approach for what was needed in 
those circumstances where we were developing an entirely new continuum 
of care program.
    Based on my 30 years of city management experience, I concluded 
that a different approach was needed for the Youth Services 
Administration because of the instability caused by the departure of 
the Administrator, her two Deputy Administrators, the Chief 
Administrative Officer, and the Oak Hill Youth Center Superintendent. I 
personally selected and recommended to the Mayor new leadership for the 
Youth Services Administration. I chose Ms. Alexander as Interim 
Administrator because she is someone who knows the District of Columbia 
and who knows how to get things done in this city. Beginning in early 
2003, Ms. Alexander had been assigned by the Deputy Mayor for 
Operations to the then troubled Office of Property Management as Chief 
of Staff, Deputy Director and then Interim Director. She stabilized 
that agency and began the process of turning it around until we could 
put a more permanent professional in place. While Ms. Alexander has 
some juvenile justice experience from her time in the Abuse and Neglect 
Section in the Office of the Corporation Counsel, her selection as 
Interim Administrator of the Youth Services Administration was premised 
on her ability to stabilize the agency and to reform its management 
infrastructure while we conduct a nationwide search for a permanent, 
juvenile justice expert to lead the agency. As an 18-year employee of 
the District of Columbia, a fine lawyer, and a certified public 
manager, Ms. Alexander is the right person for the job and I am 
fortunate to have found her.
    Since her arrival on December 3, 2003, Ms. Alexander has moved to 
fill critical vacancies in the Youth Services Administration, hiring 33 
new employees, including the Assistant Superintendents for Treatment 
for both the Oak Hill Youth Center and the new Youth Services Center 
(which is set for beneficial occupancy in late August 2004), 18 Youth 
Correctional Officers, and 5 Juvenile Justice Institutional Counselors 
(otherwise known as Treatment Team Leaders). These are critical hires 
for the agency because these are the employees who provide direct 
services to our youth.
    Dr. Sybil Smith-Gray, the newly-hired Assistant Superintendent for 
Treatment, is a licensed clinical psychologist and has worked 
collaboratively with the Department of Mental Health (which previously 
retained her as a contractor) to reform our diagnostic and assessment 
unit. With Dr. Gray's leadership, and in concert with the Department of 
Mental Health, the Youth Services Administration has developed a 
therapeutic atmosphere for securing detained and committed youth. The 
Youth Services Administration is a human services organization and its 
service delivery is predicated upon the concepts of Corrective 
Treatment and Balanced and Restorative Justice or BARJ. The fundamental 
goal of corrective treatment for the juvenile offender is the 
development of a healthy and adaptive respect/obedience for authority 
as evidenced by discipline, order, respect and compliance. As 
clinicians in social services, our aim is to accomplish this goal 
through repeated clinical interactions that replicate the phases that 
characterize the healthy caregiver-child relationship: positive 
engagement, interpersonal stress, reparation of the damaged 
interaction. Ultimately, this effort will support the juvenile 
offender's ability to develop healthy interpersonal relationships and 
that are characterized by mutual trust, empathy for others, and the 
ability to exchange ideas and share feelings effectively. With regard 
to BARJ principles, victims/survivors of crime, offenders, and the 
community are viewed as equal consumers of the juvenile justice system. 
Therefore, each of these entities is given equal consideration when 
developing and implementing programmatic responses. The three over-
arching goals of BARJ for juveniles are: accountability, competency, 
development and community protection.
    As of this writing, 392 of the Youth Services Administration's 480 
authorized FTE's are filled. Of these remaining positions, 65 are in 
recruit status and 23 are vacant. The Mayor has proposed in his fiscal 
year 2005 budget, a significant increase in funding, in order to hire 
an additional 71 FTE's in the Youth Services Administration to staff 
the new Youth Services Center and to implement Jerry M. compliance and 
organizational improvements. The new Youth Services Center is an 80-bed 
diagnostic facility located on Mt. Olivet Road that will serve our 
detained youth prior to adjudication. Understandably, the ongoing 
nationwide recruitment effort by the D.C. Office of Personnel for a 
permanent Administrator is made especially difficult while plaintiffs' 
motion for appointment of a transitional receiver is pending before the 
Superior Court in the Jerry M. litigation. Nevertheless, we are 
actively moving forward to recruit a top juvenile justice professional 
to lead the organization as we work diligently to stabilize it.
    As part of her management reform initiative, Ms. Alexander is 
reorganizing the agency under four Deputy Administrators as follows: 
(1) Deputy Administrator for Secure Programs (responsible for 
operations at both Oak Hill Youth Center and the new Youth Services 
Center); (2) Deputy Administrator for Court and Community Programs 
(responsible for aftercare services for committed youth and for court 
activities); (3) Deputy Administrator for Support Services 
(functionally, the Chief Administrative Officer responsible for all 
administrative activities); and (4) Deputy Administrator for 
Performance Management (responsible for risk management, program 
evaluation, data collection, contract monitoring, policy and 
accreditation). The Deputy Administrator for Court and Community 
Programs has already been hired and the other three deputies have been 
recruited and are awaiting selection. The incumbents for these 
management positions will be involved in hiring direct report managers 
within their respective operational responsibilities. This new 
structure will rationalize the organization and provide for enhanced 
management and accountability to ensure that the youth are being 
comprehensively and efficiently served.

         INVESTIGATIONS BY THE OFFICE OF THE INSPECTOR GENERAL

    The Office of the Inspector General's Inspections and Evaluations 
Division began an inspection of the Youth Services Administration in 
April 2003. The inspection is being conducted in two parts. Part One, 
which is covered in a draft report submitted to the Department of Human 
Services for comments on March 4, 2004, includes management, 
administrative services, and all operations at the Oak Hill Youth 
Center. On March 22, 2004, in accordance with the Office of Inspector 
General's standard auditing procedures, the Department of Human 
Services provided its comments to the 45 findings and 96 
recommendations contained in Part One's draft report of investigation. 
We await the Office of the Inspector General's final report. Part Two, 
which was commenced in February 2004, includes the remaining operations 
of the Youth Services Administration.
    During the course of the Part One inspection, the Inspector General 
also issued seven Management Alert Reports on matters that the 
inspection team found required the immediate attention of District of 
Columbia government officials. The Youth Services Administration 
responded to each of these Management Alert Reports and is taking 
specific action to address each of the deficiencies identified in the 
reports.

Fire Safety
    The Inspector General alerted the Youth Services Administration to 
a number of fire safety deficiencies, including inaccessible fire 
extinguishers, a lack of fire drills, and a lack of posted evacuation 
plans. In responding to the report, the Youth Services Administration 
abated each and every fire safety deficiency. However, the Youth 
Services Administration disagrees with the Inspector General on the 
issue of accessibility of fire extinguishers. The Youth Services 
Administration follows American Correctional Association (ACA) 
standards pertaining to ensuring the safety and well-being of its 
residents and staff at the Oak Hill Youth Center. To that end, all fire 
extinguishers are concealed in locked wall areas on each unit. The unit 
manager and supervisory Youth Correctional Officer or YCO on each unit 
have keys to open the locked wall boxes. In order to provide additional 
safety measures to each housing unit, the Youth Services Administration 
is installing a lock box in each of the security office's to ensure 
that the keys are available on the unit should a fire emergency occur. 
The Youth Services Administration has mounted its fire evacuation 
plans, is recruiting to fill the position of Health and Safety Officer, 
and is documenting its ongoing fire drills in weekly fire inspection 
reports.

Security
    The Inspector General alerted the Youth Services Administration to 
breaches of security at entrances at the Oak Hill Youth Center due to a 
lack of adequate search procedures, and the employment of security 
guards without completed criminal background checks. These findings and 
recommendations were made during the time prior to November 2003 when a 
contractor was providing these security services. That contractor was 
terminated for convenience and, effective November 16, 2003, the 
Department of Corrections began providing these security services with 
an approximately 23-member squad and each of its correctional officers 
have undergone criminal background checks.

Female Youth
    The Inspector General alerted the Youth Services Administration to 
certain deficiencies in the female housing unit that impair the ability 
of YCO's to effectively maintain the safety and security of residents 
and to ensure their own safety as well. These deficiencies included a 
lack of proper security monitoring equipment, insufficient perimeter 
lighting, a lack of proper communication equipment, and failure to 
provide all YCO's with keys to resident rooms in the event of an 
emergency. In the responding to the reported deficiencies, the Youth 
Services Administration issued four additional two-way radios to the 
unit supervisor in Unit 6 for female youth. In the event additional 
radios are necessary, instructions have been given to the Officer of 
Day to ensure that any staff member who needs access to a two-way radio 
receives this equipment immediately. In order to provide additional 
security measures that will allow faster evacuation of the housing 
units, including Unit 6, the Youth Services Administration is 
installing a lock box in the security office, and the unit manager, 
supervisory correctional officer and the officer of the day will have 
access in the event of a fire or other emergency. The Youth Services 
Administration has repaired the electronic security monitoring system 
in Unit 6 and the metal detector and hand wand equipment at Unit 6 have 
been replaced. The equipment is operational and the staff has been 
instructed to have this security equipment operational at all times. 
Finally, the Youth Services Administration is aware of the need to 
upgrade the facility's exterior lighting, and arrangements are under 
way to upgrade the electrical power so that institutional lighting can 
be enhanced for Unit 6.

Communication Equipment
    The Inspector General alerted the Youth Services Administration to 
a lack of sufficient and reliable communication equipment that 
threatens overall safety and security and impairs the ability of YCO's, 
transportation officers, treatment team leaders, and social services 
representatives to perform their jobs effectively. The Youth Services 
Administration, in conjunction with the Department of Human Services, 
the Office of the Chief Technology Officer, and Verizon Communications, 
completed a thorough assessment regarding the telecommunications needs 
of the agency are in the process of establishing a corrective action 
plan. In the interim, while the longer term solution is planned and 
implemented, the Youth Services Administration has repaired the broken 
equipment, issued additional two-way radios and cell phones, and 
repaired broken electronic monitoring systems.

Illegal Substances
    The Inspector General alerted the Youth Services Administration to 
illegal substances, such as marijuana and phencyclidine (PCP), smuggled 
into the Oak Hill Youth Center. These allegations arise at a time when 
a contractor was providing security but, candidly, the presence of 
illegal substances persists. In a recent testing, 14 of 159 youth or 
8.8 percent testified positive for the presence of marijuana. The Youth 
Services Administration already is investigating the report's 
allegation that YCO's are engaged in illegal conduct (i.e. providing 
illegal substances to youth), in addition to the investigation being 
conducted by the Department of Human Services Office of Investigations 
and Compliance. We agree with the Inspector General that the use of 
Department of Corrections officers to provide perimeter and sally port 
security at the Oak Hill Youth Center will assist in the interdiction 
of contraband entering the facility. The agency is utilizing shakedowns 
and other measures within the facility to detect such contraband in the 
housing units. The Youth Services Administration also is working with 
the Metropolitan Police Department's canine unit to buttress its drug 
interdiction measures inside of the facility. The canine unit already 
has visited the Oak Hill facility on four unannounced visits, and the 
longer range objective is to enter into a memorandum of understanding 
to provide the Oak Hill Youth Center and subsequently, the new Youth 
Services Center, with a permanent canine detection program.

Abandoned Buildings
    The Inspector General alerted the Youth Services Administration to 
documentation of 28 vacant and abandoned buildings on the same grounds 
as the Oak Hill Youth Center, many of which are unsecured and have been 
entered and vandalized. While the report improperly attributes the 
maintenance of these properties to the Youth Services Administration, 
the agency currently occupies only limited buildings located on the old 
Forest Haven site. Nevertheless, the District is responsible for these 
buildings and will, as part of its overall strategy for the future of 
this 888-acre site, take affirmative action to secure these properties. 
As to the allegations that the utilities should be terminated, the 
Youth Services Administration has learned that the Forest Haven 
facility was constructed prior to current water, sewer and electrical 
standards and therefore these services cannot be disconnected because 
these electrical systems provide the street lighting necessary to 
maintain security visibility at Unit 6 for the female youth), along 
each street in the parcel of the land, for the Training Academy, and 
the Union's facility. In addition, YSA must maintain water flow because 
it provides water to all fire hydrants on the property and serves the 
Woodland Job Corps, which was originally a part of this site.
    In light of the Blue Ribbon Commission recommendation to demolish 
and rebuild the Oak Hill Youth Center at or near its current location, 
the Williams Administration has received proposals from both government 
and private groups for use of the land and must determine the most 
appropriate approach. I have tasked the members of my team to work with 
other government officials and the various stakeholders to develop a 
recommendation in May.

Transportation
    The Inspector General alerted the Youth Services Administration to 
employees operating government vehicles without valid State driver's 
licenses and government motor vehicle identification cards, and 
vehicles being operated with expired inspection stickers. The Youth 
Services Administration has taken affirmative steps to ensure that 
employees who do not possess a valid District of Columbia driver's 
license or government motor vehicle identification card are not be 
permitted to operate one of its vehicles. The Youth Services 
Administration has requested additional vehicles to keep from operating 
vehicles with expired inspections stickers, but those vehicles must 
continue to be operated, on the grounds of Oak Hill for maintenance use 
only, until such time as the new vehicles arrive.
    The Youth Services Administration is cooperating with these ongoing 
investigations and is looking forward to working with the Office of the 
Inspector General to correct these and the other deficiencies 
identified in the Part One draft report of investigation.

                              RECEIVERSHIP

    The subcommittee has asked me to testify about whether a receiver 
should be put in place for the Youth Services Administration in 
connection with the Plaintiffs' Motion for Appointment of a 
Transitional Receiver filed in the Jerry M. litigation in December of 
2003. Let me begin by expressing my understanding from the attorneys in 
the Office of the Corporation Counsel who represent the District in the 
litigation that the presiding judge requested that the parties not try 
the motion in the media and, of course, I am mindful of the court's 
admonition. However, the subcommittee has specifically requested that 
the District present testimony on this important issue and I will do 
so. The Superior Court of the District of Columbia held a 3-day hearing 
on the motion on February 23-25, 2004, and I testified in the 
government's behalf on the third day of the hearing along with Ms. 
Marceline D. Alexander, the Interim Administrator, Mr. John M. Manuel, 
the Acting Deputy Administrator for Secure Programs, and Ms. Martha B. 
Knisley, the Director of the Department of Mental Health.
    Of course, I leave representation of the District of Columbia in 
the Jerry M. litigation in the capable hands of the Corporation Counsel 
and his assistants. I understand that the plaintiffs bear the burden of 
demonstrating that a transitional receiver should be appointed to 
oversee the Youth Services Administration. District of Columbia v. 
Jerry M., 738 A.2d 1206, 1214 (D.C. 1999). The trial court must 
consider six factors in determining whether appointment of a receiver, 
transitional or otherwise, is justified: (1) whether there have been 
repeated failures to comply with the court's orders; (2) whether 
additional efforts to bring defendants into compliance would lead only 
to confrontation and delay; (3) whether leadership is available that 
can turn the tide within a reasonable period of time; (4) whether 
defendants acted in bad faith; (5) whether defendants are wasting 
resources; and (6) whether appointment of a receiver would provide a 
quick and efficient remedy. Dixon v. Barry, 967 F. Supp. 535, 550 
(D.D.C. 1997). We have urged the court in our filings not to impose a 
receiver, transitional or otherwise.
    The Jerry M. Consent Decree, entered by the Court on July 24, 1986, 
comprises 185 provisions and 43 pages of requirements governing the 
delivery of services by the Youth Services Administration. These 
provisions cover a broad range of complex issues including diagnostic 
and treatment services, education, mental health and medical services, 
discipline and training, recreation, transition and aftercare services, 
environmental and sanitation, and community programs. The District has 
made incremental progress over the course of the last 2 years, 
achieving compliance with 35 additional provisions of the 185 
provisions of the Consent Decree and reducing by two-thirds the number 
of non-compliant findings reported by the Court Monitor between 
September 30, 2000, and June 30, 2003. The Monitor's 51st Report 
measured the 6 months between July 1 and December 31, 2003, the time 
period following the departure of the former Administrator who provided 
stable leadership prior to her departure in August 2003. This was a 
period of great transition, during which there were two different 
interim administrators for brief periods of time before leadership was 
stabilized by the Mayor's appointment of Ms. Alexander. Some slippage 
during this less stable time period is not unexpected. Nonetheless, the 
District still maintained compliance with 23 additional provisions 
since September 30, 2000, and, essentially, maintained the two-thirds' 
reduction in non-compliant findings. This record contradicts the Jerry 
M. plaintiffs' assessment that nothing short of appointing a 
transitional receiver can be done at this stage of the litigation. 
Because the District has made incremental progress over the last 3 
years, albeit, not as quickly or as comprehensively as anticipated or 
required, it is unreasonable to conclude that additional efforts to 
secure compliance will be futile and lead only to confrontation and 
further delay.
    I cannot say that I am satisfied with the District remaining under 
this litigation nearly 18 years after it was first initiated. I can 
say, however, that I am very confident in our current direction and 
with the progress we are making and feel that our current approach, not 
a transitional receiver, is without question the best way for the 
District to meet the requirements of the Consent Decree. I can say that 
appointment of transitional receiver does not provide a quick and 
efficient remedy. Ms. Alexander and Mr. Back have been on task for 
nearly 4 months and their labors are beginning to bear fruit. I would 
like to highlight their accomplishments for the record:

Security Improvements at Oak Hill Youth Center
    Security Enhancements--MOU with DOC for Security at Perimeter 
Locations and at the Facility Checkpoint.
    Security staff added to the entrance of Central Administration 
Building.
    YSA is in working collaboratively with (MPD, CFSA, Court Social 
Services and OCC) to establish an absconders unit who will return all 
youth in ascendance status to YSA custody.
    YSA has introduced drug sniffing dogs at Oak Hill.
    Increased staffing on housing units additional supervisors (2).
    YSA has changed location for visiting in order to provide better 
observation and security.
Substance Abuse Enhancements/Treatments at Oak Hill Youth Center
    YSA has established a therapeutic atmosphere at Oak Hill that is 
based on the concept of Corrective Treatment and Balanced and 
Restorative Justice. This therapeutic atmosphere serves as the 
foundation for additional services including substance abuse.
    YSA is entering into a short-term MOU with APRA to provide 
substance abuse counseling until the Substance Abuse Free Environment 
or SAFE Program is implemented. This MOU would entail APRA supplying 
YSA with two Certified Substance Abuse Counselors for approximately 6 
months. YSA would use Unit 9B, which is designated for substance abuse 
treatment, and YSA would pay for this service by using Re-entry Funds. 
Contained in the MOU is the number of hours that the substance abuse 
counselor reports to OHYC. At present, it is anticipated that YSA will 
utilize the services of the counselors for approximately 21 hours per 
week at a cost of $28.00 per hour.
    RFP for the Residential Substance Abuse Program at Oak Hill was 
issued on February 15, 2004 and will close on April 2, 2004. YSA held a 
Pre-Bidder Conference at the Office of Contracting and Procurement on 
March 1, 2004 and 15 people attended, representing 12 different 
organizations. It will take approximately 4 to 6 months before services 
associated with this residential treatment program will begin.
    YSA has also established a SAFE Program for Unit 6.
    YSA has identified YCO's who are certified addiction counselors who 
will be placed in unit 9B on a permanent basis.
    YSA is reassigning youth with substance abuse needs to unit 9B.
    Voice and Motion Players (VAMP) will increase numbers of times they 
visit the housing units to 2 times a week.
    YSA has hired an additional rehabilitation specialist with a 
background in addiction treatment.
Training
    YSA continues to provide Specialized Training to all Diagnostic 
Treatment Team Leaders: These specialized training session will consist 
of:
  --Writing and Implementing the Effective ISP,
  --Interviewing Youth,
  --Planning Successful Team Management.
    Continues to train case managers in conjunction with Dr. Marty 
Beyer--Jerry M. Consent Decree expert--which consist of:
  --Strength Based Assessments,
  --Treatment Plans.
Staffing Enhancements
    YSA has hired two Assistant Superintendents for Treatment.
    YSA has hired 18 additional YCO's, 2 Licensing Monitors and 1 Chief 
of Licensing from CFSA, 6 program analysts, and 5 Juvenile Justice 
Institutional Counselors.
    YSA has filled one and is currently recruiting to fill for 3 Deputy 
Administrators for:
  --Secure Programs,
  --Court and Community Programs (filled),
  --Performance Management,
  --Deputy Administrator for Support Services (Chief Administrative 
        Officer).
    YSA is also currently recruiting to fill:
  --Oak Hill Youth Center Superintendent,
  --Training Manager,
  --Intensive after care workers,
  --Cooks,
  --IT professionals.
Community Enhancements
    YSA has entered into an MOU with D.C. Parks and Recreation's Roving 
Leaders to provide services to youth in community based programs.
    YSA has assigned a staff member to ensure that all youth are 
reviewed for Medicaid Eligibility once they enter the system.
    YSA launched its licensing of group homes in March and has 
implemented additional monitoring/inspection procedures for all group/
shelter homes.
    YSA has signed a statement of work for three group home 
solicitations: generic, therapeutic, and therapeutic substance abuse. 
The generic group home is scheduled to go through the District's 
Procurement Review Committee for approval on April 2, 2004. The 
therapeutic group home is ready for placement on the web and should be 
on the web by March 31, 2004. The therapeutic substance abuse group 
home will be ready by April 15, 2004, provided that revisions are 
finalized and the Procurement Review Committee approves it. In the 
interim, YSA is working on additional statements of work for shelter 
and vocational group homes.
Educational Programming/Enhancements--Oak Hill Academy
    Consistent with the Jerry M. Consent Decree, all youth entering Oak 
Hill receive education assessments within 72 hours. DCPS has on staff 2 
Assessors who provide this service.
    DCPS staff involved in the diagnostic process come together every 
Tuesday to assess the youth's educational and vocational test scores as 
well as educational history in an effort to develop an educational 
track/plan.
            Changes In Educational Services
    Oak Hill Academy has instituted two changes in Educational Services 
to meet the individual needs of its students: how to schedule students 
in their classes, and increase in programs to support the school's 
focus on reading and mathematics across all content areas.
    DCPS has requested and YSA will provide additional YCO's who will 
be specifically designated as DCPS YCO's who will reside in the school 
to support the needs of the new and revised day and after school 
programs.
    During the 3rd Advisory, students' class schedules will better 
reflect their Individual Service Plan (ISP), school credit, and 
interest needs.
    Students will be scheduled in classes based on educational 
programming dictated by their ISP.
    DCPS received an AOL Grant in the amount of ($10,000). This grant 
will enable 15 students needing remediation services for graduation, or 
college/college preparation classes to take computer courses online.
    DCPS will be expanding its evening program to include a school 
band, book club, public speaking class, typing class, chess class, 
debating team, math and reading tutorials.
    DCPS will also offer athletic intramurals such as football and 
basketball.
    DCPS has also hired a Reading Specialist, who will support 
teachers' efforts to modify instruction to meet the reading deficits 
that impact students' learning.
            DCPS Volunteer Groups
    Georgetown University and American University enable DCPS to 
provide tutorial services in such areas as job preparation, GED 
training, improvement in communication skills and self-esteem building.
    American University's Washington College of Law has 13 tutors who 
each assist one male student, academically and socially. They meet 
every Friday from 3:30 p.m. to 5:00 p.m. in the main school building.
    Georgetown University provides tutorial services for female 
residents on Unit 6. This group is comprised of 8 tutors, working on a 
one-on-one basis to help the female students attain higher academic 
success in need areas. These tutors are on Unit 6 every Sunday from 
3:30 p.m. to 5:30 p.m.
    DCPS has arranged for the Public Defender Service to provide 
evening classes on Street Law.
    DCPS in conjunction with YSA conducts Interdisciplinary Community 
Transition Planning Meetings. The purpose of these meetings is to 
develop the aftercare plans that will address the needs of committed 
youth within the context of the Balanced and Restorative Justice 
principles of community safety, accountability, and competency. These 
meeting are held 90 days prior to a youth's projected release date.
    DCPS has also established Oak Hill Transition Specialists Program 
Guidelines and established in DCPS are 5 individuals responsible for 
transition/coordination services related to Oak Hill youth. The youth 
transition into four schools Anacostia, Ballou, Cardoza and Roosevelt 
Senior High Schools. Students are also transitioned into other charter 
schools as applicable.

    Moreover, plaintiffs seek to provide 6 months for the transitional 
receiver to prepare a work plan and an additional year to put the plan 
in place. On the other hand, I directed Ms. Alexander to prepare and 
submit her comprehensive work plan for achieving Jerry M. compliance to 
me in May, and I fully expect that the plan will include further 
organizational adjustments gleaned from the past 4 months and a 
recommendation of whether the Youth Services Administration should 
become a cabinet-level agency. The selection of a new transitional 
receiver itself would take weeks, in addition to the delay identified 
above in preparing a plan and implementing it. The quicker and more 
efficient remedy is to permit the current Interim Administrator to 
continue her stabilization efforts and concentrate on recruiting for a 
permanent Administrator to assume the reins of a reinvigorated Youth 
Services Administration.
    I believe that I have demonstrated in my testimony to the court on 
February 25, 2004, and before this subcommittee this morning, that 
leadership is available that can turn the tide within a reasonable 
period of time at the Youth Services Administration. In addition to 
developing a comprehensive work plan for the Youth Services 
Administration by May 2004, Ms. Alexander's priorities include hiring 
staff, identifying and obtaining needed resources, developing more 
collaborative relationships with other agencies and stakeholders, and 
finalizing an organizational structure for the agency. Ms. Alexander 
already has hired 35 new staff and created a new organizational 
structure. She prepared fiscal year 2005 budget enhancements for the 
new Youth Services Center and is working to bring that facility on 
line. She and her senior staff have met with sister agencies and other 
stakeholders, including Councilmember Sandra Allen (Chair of the 
Council of the District of Columbia's Committee on Human Services) to 
develop collaborative strategies in delivering improved services to our 
youth. Ms. Alexander has met with Dr. Margaret Beyer, the parties' 
stipulated aftercare expert, about moving forward with the agency's 
group and shelter home solicitations and other Order B issues. Ms. 
Alexander is putting in place a management team that address each of 
the deficiencies identified in the Inspector General reports, the Court 
Monitor's 51st Report, and the Blue Ribbon Commission Report. We fully 
expect the Court Monitor's 52nd Report to substantiate the progress we 
are making in the first half of the current calendar year.
    Ms. Alexander and her special counsel, Mr. Back, have direct access 
to me for consultation, review or assistance with any issue on a 24/7 
basis. In addition, the team that I began to assemble in October 2003 
continues to provide its support to this multi-agency reform 
initiative. In short, the Youth Services Administration is a top 
priority of the District of Columbia. The Williams Administration is 
resolved to making all necessary reforms to continue to make 
improvements in the delivery of services to our detained and committed 
youth.
    I want to thank this subcommittee for the opportunity to testify on 
behalf of Mayor Williams concerning the progress made at the Youth 
Services Administration. Ms. Alexander, Mr. Back, and I are available 
to answer any questions.

    Senator DeWine. Well, we thank you very much for your 
testimony. Let me start by asking: you had the opportunity to 
hear the previous witnesses testify?
    Mr. Bobb. Yes.
    Senator DeWine. What is your opinion about the Blue Ribbon 
report?
    Mr. Bobb. Well, I have read the executive summary of the 
Blue Ribbon report. It does make a lot of very good 
recommendations as to how the District of Columbia can move 
forward in providing services to youth, and in particular, to 
juveniles within the District.
    The Mayor had appointed a committee in December of 2003 
that is now taking the basics of the Blue Ribbon Committee, 
coming up with a series of recommendations and strategies as to 
how we can move the Blue Ribbon Committee's report forward in 
the District. So that is currently under review.
    Senator DeWine. How do you think that Oak Hill fits into 
this or does not fit into it, and get to the comments of the 
two previous panel members. I mean their recommendation is that 
you close Oak Hill. What is your opinion about that?
    Mr. Bobb. Well, the recommendation, I will give you my 
candid opinion. The recommendation that we sunset----
    Senator DeWine. That is what we like. We like candid.
    Mr. Bobb. The recommendation that we sunset the Oak Hill 
facility and close it at a future date is one what will require 
very careful study and analysis, because at the end of the day, 
Oak Hill closes its doors, and then we have to place all of 
those facilities within the District of Columbia. That, too, 
will have to be--you would have to bring the entire community 
along with you, because you are going to run into the NIMBY 
concept, or not in my back yard.
    In addition, we are also going to have the issue of whether 
or not we want to impact--typically what happens is, many of 
these facilities, from my experience, are placed in moderate, 
low income areas, and so then you have the impaction of whether 
or not those communities themselves should be the recipient of 
many of these types of facilities.
    So I just think that it is going to require very careful 
community discussions and conversations in a much broader sense 
than perhaps what was done when the committee conducted its 
study and its review, and made its recommendations.
    Senator DeWine. Well, the description that has been given, 
the picture of Oak Hill today, has that been an unfair 
description? It has been a pretty bleak description. Now, if 
someone went out here, somebody who is in the audience today, 
who had not been at Oak Hill, would they see something better?
    Mr. Bobb. No. You are not going to see any physical--the 
physical conditions of Oak Hill are the physical conditions at 
Oak Hill.
    Senator DeWine. Well, it is not just the physical 
condition. I mean commingling of status offenders, a kid who is 
a truant, put in a room with a sex offender. That is pretty 
shocking.
    Mr. Bobb. Absolutely. I can tell you that those issues 
occurred, they were not on--they have not occurred at Oak Hill 
since October of last year. If you go--what we would challenge 
all of the finders and all of the reports, is to take a look at 
Oak Hill since Mayor Williams directed this team to fix a 
problem that has been plaguing this District of Columbia for 
the last 17 years. In my more detailed testimony, it speaks to 
the changes, fairly dramatic changes in a short period of time, 
that we have taken at Oak Hill, including putting in treatment 
programs, or expanding the treatment programs for youth at that 
facility.
    Senator DeWine. Tell us a little bit, you touched on this 
in your statement, but tell us in a little more detail about 
what treatment is available, what programming is available to 
the young people who are at Oak Hill.
    Mr. Bobb. I will let Ms. Alexander, if you do not mind, go 
through----
    Senator DeWine. Sure.
    Mr. Bobb [continuing]. Some of the details in that regard.

                  STATEMENT OF MARCELINE D. ALEXANDER

    Ms. Alexander. Good morning.
    Senator DeWine. Good morning.
    Ms. Alexander. As relates to substance abuse treatment, 
currently YSA has established a therapeutic atmosphere at Oak 
Hill that is based on the concept of corrective treatment and a 
balanced and restorative justice approach.
    Senator DeWine. A what? I am sorry.
    Ms. Alexander. Balanced and restorative justice, which 
basically----
    Senator DeWine. What does that mean?
    Ms. Alexander. It takes--it balances competing 
considerations, that of the offender, the community, and the 
victim.
    We are also entering into a short-term memorandum of 
understanding with our substance abuse administration, APRA, to 
provide substance abuse counseling until the SAFE program, 
which has been the subject of a lot of discussion is 
implemented. As relates to the SAFE program, we expect to have 
a substance abuse treatment facility fully operational in 
September, late August.
    We have also established a substance abuse education 
program for our females on unit six. I would be happy to 
provide the curriculum to you. We have identified youth 
correctional officers who are certified substance abuse 
counselors, who we placed on specific units within the facility 
on a permanent basis to assist us in providing treatment and 
counseling for the youth.
    The Department of Mental Health is also conducting 
individual and group counseling for youth who have been 
identified through their treatment plan as requiring 
counseling. In addition, we have the Voice and Motion Players, 
which is a private vendor that goes out and uses innovative 
approaches to working with youth in dealing with substance 
abuse and other related issues.
    We have also hired a rehabilitation specialist, who 
formerly worked in the SAFE program to assist us in providing 
counseling and treatment.
    I would also say that we have a cannabis youth treatment 
service module in preparation for a more intensive substance 
abuse treatment program. Those children who have, through their 
treatment plan, as being identified as having severe substance 
abuse addiction issues are, of course, placed in residential 
treatment facilities, so they get more specialized treatment.
    Senator DeWine. You say there are children who are placed 
in residential treatment facilities.
    Ms. Alexander. That is correct. Who, through their 
individualized service plan, have been identified as having 
overriding substance abuse issues that require more intensive 
treatment. They are placed in residential treatment.
    Senator DeWine. How many would be placed there? Do you have 
any idea?
    Ms. Alexander. I do not have those specific numbers, but I 
would be happy to supplement the record with that information.
    Senator DeWine. Would you do that for me?
    Ms. Alexander. Yes, I would.
    Senator DeWine. Senator Landrieu has some questions. Go 
ahead.
    Senator Landrieu. Thank you, Senator. I have several other 
meetings this morning. I appreciate the chairman's courtesies.
    I just wanted to state for the record that I will submit a 
quite lengthy statement that I have for the record, and to 
thank you all for your testimony, but just to be sure that we 
are clear on some of the overall facts, we are dealing with 
approximately, Mr. Bobb, 500 children, for a total of $69 
million.
    The paper reported, I think, that it was about $90,000 per 
child, but our figures indicate that we are spending about 
$145,000 per child. I am going to clarify and verify those 
numbers. But whether it is $90,000 or $145,000 per child, I 
think we are all agreed that we can do a much better job than 
is being done.
    I also think the findings of this this morning are that 
since you have come on board, you have tried to put some things 
in place, and actually have accomplished some new directions, 
and have put in place some refocus and urgency about this 
matter, which I want to commend you for, and thank you.
    But clearly, the budget does not seem to be the problem. It 
is either the management, or the structure, or the focus, or 
the arrangements that seem to be, because we could send--these 
children are young people. I know that they are offenders. I 
know that some of them are violent offenders, and have been 
criminal in their actions. But for $145,000 a year, we could 
send them to maybe the finest facilities in the world.
    So I just want to go on record before I have to leave to 
say that I am personally committed to visit Oak Hill. I want to 
work with you all in every way that I can to see that we can 
find some immediate solutions to these situations, and to 
really urge you all to continue to put in place the kind of 
leadership team that is going to be necessary, which I think 
you are on the right track.
    But putting a strong leadership team in place, that has as 
its focus finding the proper placement, and retraining, or 
rehabilitation for each and every one of these young people, 
and not be focused on the contractors, not be focused 
necessarily on the facilities, although, Mr. Chairman, I think 
it is always nice to have, obviously, a clean and safe 
environment. I think sometimes we spend too much energy on 
brick and mortar, and not enough on the teaching or the 
ministering to of the individuals that we are trying to 
rehabilitate.
    So with that in mind, I am going to leave my further 
questions for the record, but I just want to ask one question. 
What is the date that we have to actually find a director for 
Oak Hill, or are we looking for a director?
    Mr. Bobb. Yes, Senator, we are--we have our executive 
recruitment has taken place. We have identified a number of 
candidates. We are in the process of now trying to entice those 
candidates that come to the District for interviews, and we----
    Senator Landrieu. Do we have a time line and a salary 
range?
    Mr. Bobb. I do not have--some of the salaries will have to 
be negotiated, but----
    Senator Landrieu. Approximately. A range of person that you 
are looking for.
    Mr. Bobb. Probably $125,000.
    Senator Landrieu. A hundred to hundred-twenty-five thousand 
for a director. What is our time frame for identifying this 
person?
    Mr. Bobb. May. We have already identified--we have a key 
candidate that we are working with at the moment. We will have 
that candidate, hopefully have that candidate on board by the 
first of May----
    Senator Landrieu. Okay.
    Mr. Bobb [continuing]. When, I might add, a comprehensive 
report from our interim team is due on my desk.
    Senator Landrieu. One other--I know you have probably 
submitted this, but for the record, if you would state, how 
many youth are in group homes, and how many group homes are 
there in the District?
    Mr. Beck. There are--we have 82 as of----
    Senator Landrieu. Eighty-two----
    Mr. Beck. There are 82 youth or shelter homes. We have 82 
youth and 10 shelters, and 21 youth, and 3 group homes. Six in 
specialized services. That is a total of 103 that are in either 
group or shelter homes.
    As of March 25, we had 177 children, youth, out in Oak 
Hill. On that same date, we had 159 in residential placement, 
either inside or outside of the District of Columbia.
    Senator Landrieu. Okay. Do we have an evaluation procedure 
in place for evaluations of group homes? Have we ever had a 
contract terminated in the last 12 months?
    Ms. Alexander. We have actually started to kick off our 
licensing process. We have established a licensing unit, 
brought on board, two licensing monitors from the Department of 
Health--I am sorry--from the Child and Family Services 
Administration, to get their expertise, because they have just 
gone through the licensing process of their foster and group 
homes. So that process is under way.
    Mr. Bobb. Senator, if I may just elaborate on that just for 
a second. The District of Columbia does not license group 
homes, although, the licensor procedures has been on the books 
for about 2 years. When this team came on board, I visited a 
number of the group homes unannounced. I convened a meeting 
of--I brought in all of the group home operators. This team, we 
have met with all of the group home operators. We have issued a 
packet of information to them. They are now aware that those 
group homes will go through a licensing procedure over the next 
several months.
    But it is more than just licensing. We are also putting in 
place programs, in terms of how are those children, you know, 
what are the programs for children who are in group homes? I 
was not satisfied with at least one of the group homes that I 
paid an unannounced visit to.
    So we are tightening the reigns on the group homes, not on 
the physical conditions of the group homes, but the 
programmatic way in which the group home operators work with 
children who are under their care, in addition.
    Senator Landrieu. Well, thank you. Finally, Mr. Bobb, I 
will just say, I really commend you for those unannounced 
visits. I think that is very, very important. You will not hear 
a peep out of this chairman or myself if you would decide to 
close one or two of those group homes, because I am not for 
giving people more time when they are not doing a good job. I 
realize there is due process, and I understand that, but I also 
understand these children's lives are--a year in a child's 
life, or a month, or a short period of time can seem like 
eternity for a child that is in the wrong place.
    Just for the record, how much are we paying these group 
home operators per day, per child? What is the per diem, 
currently?
    Mr. Bobb. It ranges, I think last--fiscal year 2003, we 
spent about $6 million on the group homes.
    Senator Landrieu. But what is their per diem rate, 
approximately?
    Mr. Bobb. It is anywhere between $115 to over $300.
    Senator Landrieu. So we are paying $115 to $300 a day for 
operators that are unlicensed, and basically, from what we can 
tell, not doing very much, in terms of either rehabilitating, 
or caring for, or nurturing, or protecting these children. Now, 
something has to change immediately. I thank you for your 
efforts.
    Mr. Chairman, I have to go to my other meeting, but I thank 
you for the time you are giving to this important subject.
    Senator DeWine. How many young people does YSA have under 
your jurisdiction, total? Just recap those figures.
    Ms. Alexander. It fluctuates on a daily basis.
    Senator DeWine. Sure.
    Ms. Alexander. Anywhere from 480 to 500.
    Senator DeWine. Can you give me the rough breakdown of that 
again, where they are?
    Mr. Beck. We took--Senator DeWine, we took March 25 as the 
date, and we had submitted----
    Senator DeWine. That is a good date.
    Mr. Beck. For the committed, we had 81 committed, 96 
detained at Oak Hill on that day. So that is 177. On that same 
day, we had----
    Senator DeWine. Wait a minute now. So you have 177 at Oak 
Hill.
    Mr. Beck. On March 25. These are numbers that we provided 
the committee.
    Senator DeWine. Right. And they break down how at Oak Hill?
    Mr. Beck. On that date, there were 81 committed, 77 of them 
male, 4 of them female; 96 detained, 82 of them male, 14 of 
them female.
    Senator DeWine. All right.
    Mr. Beck. There were 82 youth in 10 shelter facilities, 21 
in 3 group homes, and 6 in specialized services facilities. So 
that is a total of 103 that were in either group or shelter 
homes.
    Senator DeWine. Okay.
    Mr. Beck. Then we had a total of 159 children in 
residential treatment centers. One-hundred-and-one of those 
were out of State, out of the District placements, and 58 of 
those were in District of Columbia facilities. Again, these 
were numbers that we provided the committee.
    Senator DeWine. The ones who are, let us take the ones who 
are committed, the 81 who are committed at Oak Hill. That would 
range from what to what, as far as the reasons?
    Ms. Alexander. From the most serious offense to minor 
offenses.
    Senator DeWine. How minor?
    Mr. Beck. It would be up to the court to determine whether 
they would be committed. These are adjudicated youth, and it is 
up to the Superior Court in sentencing as to whether or not 
they are committed. So whatever a Superior Court judge 
indicated or thought would be an appropriate offense that would 
warrant commitment to Oak Hill.
    Senator DeWine. I know, but you know--you can give us some 
examples.
    Ms. Alexander. Unauthorized use of a motor vehicle. Simple 
assault. Theft.
    Senator DeWine. The period of time committed to Oak Hill 
will range from what to what?
    Ms. Alexander. It varies. I am not sure of the average 
length of stay. Indulge me for one second.
    Senator DeWine. I do not care about the average--I want to 
know what the range is.
    Mr. Beck. Of time between----
    Senator DeWine. Yes.
    Mr. Beck. The average stay is between 45 days and 6 months. 
In the District of Columbia, one of seven States where the age 
of majority is 21, we can, in fact, we do have children that 
stay committed to the care and custody of YSA up to their 
twenty-first birthday.
    So you are going to have ranging from 14 years old, up to 
21. We had submitted to the committee responses about non-
violent offenses. The statistics are that for drug offenses, we 
have 24 percent of our kids that are there for drug offenses, 
36 percent for property crimes, 2 for driving offenses. That is 
the UUV's. Other non-PINS. That is persons in need of 
supervision, 2 percent. And then PINS, persons in need of 
supervision, 2 percent. So 66 percent are there for non-
violent-type offenses.
    Senator DeWine. The figures you gave us indicated that 18 
percent of the youth committed to the YSA are basically 
runaways, is that right?
    Ms. Alexander. Yes.
    Mr. Beck. Yes. Runaways from group homes. We have not had 
an escape since 2001.
    Basically, a group home is a situation where the child is 
returned to the community, so they are going to be going to 
school. One of the criticisms has been, well, why can you not 
make it more secure? Well, you are stepping them down from a 
more secure facility and putting them in the community, so that 
they can rehabilitate. They are going to be going to school, so 
it is not terribly difficult for them to just keep walking 
after school, or not going to school at all.
    Senator DeWine. So they are in the community anyway.
    Ms. Alexander. Yes.
    Mr. Beck. Right.
    Senator DeWine. That is the next step.
    Mr. Beck. A lot of them just go home.
    Senator DeWine. Now, what about this category of, we have 
another category of truants here.
    Ms. Alexander. Well, the new----
    Senator DeWine. What is this? The PINS' offenses?
    Ms. Alexander. Those are children in need----
    Senator DeWine. P-I-N-S.
    Ms. Alexander. Children in need of supervision.
    Senator DeWine. All right.
    Ms. Alexander. When the new youth diagnostic center opens 
in October, that population of youth will be serviced at that 
facility, along with our detained youth, and that is children 
who have not had a judicial determination that they have 
committed an offense.
    Senator DeWine. Okay. What percentage were foster care kids 
that ran away?
    Mr. Bobb. That was a figure that we were not able to 
determine. Those are dual-jacket kids.
    Senator DeWine. They were what?
    Mr. Bobb. They are called dual-jacket kids.
    Senator DeWine. What in the world does that mean?
    Mr. Bobb. A child who has an abuse and neglect case 
proceeding, and one that also has a charge, an offense----
    Senator DeWine. Dual jacket.
    Mr. Bobb. Yes. Dual jacket.
    Ms. Alexander. They are in both systems. The Child Welfare 
System, where they have either been adjudicated or a 
determination has been made that they have been abused and 
neglected, and through the process, they have also picked up a 
juvenile charge.
    Senator DeWine. They picked up a juvenile charge, because 
of why?
    Ms. Alexander. Because they have allegedly, if they were 
detained, committed a criminal act.
    Senator DeWine. Not just because they ran away. Because 
they have run away from a foster home?
    Ms. Alexander. No. I do not think that that would be a 
basis. Though, I cannot say that with absolute certainty that a 
child would be placed in a juvenile justice system because they 
have run away from a group home.
    Traditionally, these are children who have purportedly 
committed a criminal act.
    Senator DeWine. Well, that gets them into your PINS, P-I-N-
S. Does that not get them into that?
    Ms. Alexander. That would get them into the system, but I 
am not suggesting, nor do I believe that most of the kids who 
have dual jackets are there because they are PINS.
    Senator DeWine. But you have some of these kids detained at 
Oak Hill who come under that category, do you not?
    Ms. Alexander. We may, in fact, do.
    Senator DeWine. Okay. Well, this has been very 
enlightening. I think it shows how much work has to be done. I 
intend to go look at Oak Hill myself as well. So Senator 
Landrieu and I will both be out there.
    Again, as Senator Landrieu said, the physical facilities 
are one thing, but I think the other question is, what services 
are being provided? Whether it is $490,000 or $140,000 is 
interesting, but the real question is, what are the services 
that are being provided?
    Mr. Bobb, your comment about phasing out Oak Hill and going 
out into the community is interesting, but I do not think that 
anyone is suggesting that you are not going to need a secure 
facility, and that you are not going to always have a certain 
percentage of these juveniles who are hard core offenders, who 
are going to need to be locked up. No one should read this 
hearing, or what I have said, at least, as indicating other 
than that.
    I have been involved in the criminal justice system for my 
entire career one way or the other. There are some hardcore 
juvenile offenders. They have to be locked up. But there are 
also some truants, and there are also some runaways. Part of 
what we have learned over the years in the juvenile justice 
system is to distinguish the two, and understand the difference 
between the two, and to sort them out, and to treat them 
differently, and to give the treatment that is appropriate for 
the offense and for the offender. I think that is, to me, what 
has been the biggest problem with Oak Hill, and the biggest 
problem with what is happening in the District of Columbia.
    Now, I understand, Mr. Bobb, that your testimony has been 
that things are getting better under what you and the Mayor 
have been doing. We appreciate that. I guess the question is 
whether or not that can get better at Oak Hill, and whether or 
not that is the facility where that can be done.

                         CONCLUSION OF HEARING

    So anyway, we look forward to working with you all. We 
appreciate everyone's testimony. Thank you very much.
    Mr. Bobb. Thank you.
    [Whereupon, at 11:10 a.m., Tuesday, March 30, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


</pre></body></html>
